<html>
<title> - NOMINATION OF MARION CLIFTON BLAKEY TO BE ADMINISTRATOR OF THE FEDERAL AVIATION ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-1077]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1077

                  NOMINATION OF MARION CLIFTON BLAKEY 
                  TO BE ADMINISTRATOR OF THE FEDERAL 
                        AVIATION ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON COMMERCE, 
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 3, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
91-363                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia 
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 3, 2002................................     1
Statement of Senator Allen.......................................     9
Statement of Senator Burns.......................................     7
Statement of Senator Dorgan......................................     5
Statement of Senator Fitzgerald..................................     8
Statement of Senator Kerry.......................................    10
Statement of Senator McCain......................................     4
    Prepared statement...........................................     5
Statement of Senator Rockefeller.................................     1
Statement of Senator Snowe.......................................    31
Statement of Senator Stevens.....................................     9
Statement of Senator Wyden.......................................     7

                               Witnesses

Blakey, Marion Clifton, Chairman, National Transportation Safety 
  Board and Administrator-Designate of the Federal Aviation 
  Administration.................................................    13
    Prepared statement...........................................    15
    Biographical information.....................................    17

                                Appendix

Air Crash Victims Families Group, letter dated August 15, 2002 to 
  Hon. John McCain...............................................    50
Response to written questions submitted to Marion Blakey from:
    Hon. Max Cleland.............................................    40
    Hon. John Edwards............................................    42
    Hon. Ernest F. Hollings......................................    39
    Hon. Kay Bailey Hutchison....................................    49
    Hon. John F. Kerry...........................................    42
    Hon. John McCain.............................................    42

 
NOMINATION OF MARION CLIFTON BLAKEY TO BE ADMINISTRATOR OF THE FEDERAL 
                        AVIATION ADMINISTRATION

                              ----------                              


                       TUESDAY, SEPTEMBER 3, 2002

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:28 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Subcommittee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. This hearing will come to order. This 
is our first day back, and I would have rather held this at 
9:30 this morning, but we could not. I wanted to do it right 
away. I think we all feel that way. This is an extremely 
important nomination, and I hope soon to be a confirmation out 
of this Committee prior to September 11, and hopefully in the 
Senate.
    I know that your husband, Dr. Bill Dooley, is here and that 
Mona, your daughter, is here as well. We are very happy to 
welcome you along with Michael Jackson, our Deputy Secretary; 
and also you, Conrad Burns, who I have not seen in a month, but 
we have made it through.
    Senator Burns. A pleasant surprise, huh?
    Senator Rockefeller. That is right, that is right.
    Ms. Blakey, you were here a few months ago to testify at 
our NTSB hearing, and I want to welcome you back.
    Ms. Blakey. Thank you very much. I am pleased to be back.
    Senator Rockefeller. I want to congratulate you on your 
nomination. As I indicated, I think that we could not hold it 
in August. It would have been a little awkward since nobody 
would have been here. The FAA Administrator is one of the four 
or five most difficult positions, least understood positions, 
in the entire Federal Government, and enormously important. 
Things go right and nobody notices. When things go wrong, 
everybody notices, including all of your people.
    You have got a difficult job ahead of you. Our instinct in 
this country often is to finger-point. I don't like that 
instinct. I think it is not useful in most of our functions, 
but sometimes in terms of oversight it is necessary. We all 
need to be prodded. We get a little oversight from our 
constituents, you get a little oversight from Congress, and the 
democracy has held together pretty well for over 220 years.
    Now, you have been asked, in my judgment, to fill a very 
large pair of shoes. I am an unabashed fan of Administrator 
Jane Garvey. I thought she did a great job for 5 years. I do 
not think she was displeased to leave, which was interesting, 
because it is part of the pressure that you are constantly 
under. But, I think the chief of the FAA has served as a 
revolving door. Many really well-qualified people; the question 
is do they stay?
    Today, after 5 years of her tenure, there are major airport 
expansion projects around the country. I want to talk a little 
bit about that, and ask some questions about that. Thousands of 
new pieces of equipment are scattered here and there. Do they 
all coordinate? We can talk about that. In my opinion, the FAA 
has a better-established relationship with air traffic 
controllers and other employees than at any time in the 18 
years that I have been on this Committee and in the Senate.
    So again, large shoes to fill, but I do not really have any 
doubt that you can do that. I support you. I think you will do 
a good job and I think you have done a terrific job at NTSB. 
How can I prove that? Hard to do for a relatively short period 
of time, but I know it. I know it, and I know you, so I feel 
that I can say that without fear of contradiction from my 
conscience.
    So you do your good job at NTSB, and you move on to 
something which is even more complicated and in the public eye. 
There can be no doubt that these challenges are daunting and a 
few of them will include safety--the FAA's primary mission. But 
since September 11th members of this Committee, with all of us 
here in Congress, have been consumed by security-related 
issues. This is as it should be. But on the other hand, 
September 11th made clear to everybody how much work needs to 
be done in this area.
    Safety and security are not always the same thing. 
Sometimes we get more fascinated by security than we do by 
safety. Safety is tougher. But that is your mission, that is 
your primary mission.
    Our work on transportation security does not make 
transportation safety any less important. Indeed, given the 
difficulties that the aviation sector has experienced in the 
wake of September 11, it is even more critical that we continue 
to improve the industry's safety record, and to win back the 
confidence, in any way that we can of the public. That 
confidence should be there. That confidence is not sufficiently 
there. It is a little bit of a mystery in some ways, part of 
the American psyche, part of the times, but nevertheless it is 
a problem and airlines are reacting to it in ways which are not 
serving some of us in small States in ways that we particularly 
like.
    But anyway, you know all about this. Budget. Last month 
Secretary Mineta and Administrator Garvey indicated the FAA may 
have to furlough air traffic service employees if additional 
moneys were not appropriated. Since that time, Congress has 
appropriated some additional funding, but not the amount 
requested by the Federal Aviation Administration. I am hoping 
that your testimony will address both your thoughts on the 
immediate budget situation and on ways we can deal with the 
issue over the longer term.
    That is something we have failed to do for years. We 
finally passed a decent authorization bill, but we basically 
have been ignoring aviation infrastructure for all of these 
years. That is in part Congress's fault.
    Congestion. Some of us have started to look back wistfully 
to last summer, when congestion was the most pressing issue 
facing the aviation industry. That is what we talked about. Now 
we talk about other things. But we all know that congestion is 
not a problem that is going to go away. We, in Congress, are 
trying to do our best to do our part.
    The O'Hare modernization bill, which is something I, as 
Subcommittee Chairman, feel tremendously strong about--there 
has been some controversy, but not a great deal, and I think it 
has to happen. It sort of determines what happens in all kinds 
of other places, like North Dakota and West Virginia, and I do 
not know about Arizona, but I suspect Montana, and probably 
Arizona.
    So we have not made any progress on that. Nothing has come 
out. Senator Hutchison, who is my ranking member, and really we 
are co-chairs, she is absolutely terrific; we authored a bill 
that would have streamlined the whole process of getting 
runways under way. That has done well here, but has not 
progressed elsewhere. I am eager to learn how you plan to 
address these issues, if you can do that.
    Air traffic control. You face a number of challenges in 
this area, including how to replace retiring air traffic 
controllers, contract negotiations with the air traffic 
controllers union, and controversies surrounding the deployment 
of new equipment. Of these, perhaps the highest priority is 
maintaining our air traffic control work force.
    Some stunning figures: a June 2002 GAO study found that 
approximately 5,000 controllers may retire in the next 5 years, 
which--``may'' usually means ``will''--is twice the rate of the 
last 5 years. By 2010, GAO estimates that a total of 7,000 will 
retire, almost 50 percent of the 15,000 air traffic controllers 
who now operate.
    Clearly, action is needed on this. The time to act is now. 
I look forward to your thinking about that budding crisis.
    Security. Most of the FAA's aviation security functions 
have been transferred to the new Transportation Security 
Administration. I am not one who has disputed that. The FAA 
Administrator will nonetheless have a large role, particularly 
in those areas where security and safety issues intersect, and 
there are plenty of those.
    Your management of the air traffic control system, for 
example, has both safety and security implications. The same 
goes for pilot licensing, aircraft design specifications, 
reinforced cockpit doors. I am eager for you to be an active 
participant and look forward to your views on this.
    So these are just some of the issues that will be facing 
you at the FAA. I have a number of questions that I want to 
ask, as I am sure others do, and they have statements, and I 
apologize mine is so long. But these are issues that I feel 
very strongly about. As I said, I think you are very, very 
good. I look forward to voting for you here and on the floor 
just as soon as possible.
    The next person, obviously, will be Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman, for 
holding this hearing on the nomination of Ms. Blakey to serve 
as the Administrator of the Federal Aviation Administration. As 
we all know, Jane Garvey, who served with distinction as 
Administrator of the FAA for the past 5 years, left at the end 
of her term on August 4th. It is important that we ensure that 
the FAA has strong leadership to continue the legacy 
established by Administrator Garvey.
    I initially had some doubts about the depth and breadth of 
Ms. Garvey's aviation experience prior to her being nominated 
as the FAA Administrator. She has proved to be a strong and 
effective leader at the FAA. I think Ms. Blakey may face some 
of these same questions. However, I believe Ms. Blakey has 
exhibited strong leadership qualities in her most recent 
position as Chairman of the NTSB, in addition to many other 
roles held within the Federal Government over the years. I 
expect she will continue to exhibit these same attributes as 
head of the FAA.
    The confirmation of a new Administrator will mark the 
second appointment after Congress enacted the 5-year term 
provision. I believe it is important for an incoming 
Administrator to commit to a full term. Prior to Ms. Garvey, 
the Administrator's job was almost a revolving door. Ms. Garvey 
served her full term even after a change in administrations. 
The 5-year term is key to the FAA's ability to maintain its 
independence and its status as the premier aviation safety 
agency in the world. The extended term of the administrators 
and the agency's independence make it essential that its leader 
be unswayed by party loyalties and unaffected by political 
winds.
    As you just stated, Mr. Chairman, the new administrator 
will face numerous challenges in the coming months and years. 
Since September 11th, much attention has been focused on the 
new Transportation Security Administration. The FAA has 
continued to operate well, but has not faced the Congressional 
scrutiny over the past year that it normally attracts. That is 
going to change in light of so many issues that will soon 
confront our new air transportation system.
    In addition to security, we will need to focus on building 
new runways and infrastructure and expand existing capacity. 
The push toward a fully modernized air traffic control system 
needs to continue.
    In addition, the FAA's funding is due for reauthorization 
next year. There will be some tension between security and 
capacity funding needs. Further, the collective bargaining 
agreement between the air traffic controllers and the agency is 
set to expire. These will not be easy issues to resolve.
    Ms. Blakey, I want to thank you for your willingness to 
serve. I hope that we can move your nomination as quickly as 
possible.
    Most Senators on occasion, including this one, seize an 
opportunity such as this to discuss for a moment a parochial 
issue. I will do that now. The Grand Canyon Overflights Act was 
passed in 1987. It is now 2002. We still do not have 
regulations issued by the FAA, working with the Park Service, 
to implement the provisions of that act. I would hope you would 
give that issue some priority.
    Mr. Chairman, I have to go down to the White House in a few 
minutes for a meeting and so I want to thank you for holding 
the hearing and I look forward to working with Ms. Blakey in 
the future. Thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    Thank you, Mr. Chairman, for holding this hearing today on the 
nomination of Ms. Marion Blakey to serve as the Administrator of the 
Federal Aviation Administration. As we all know, Jane Garvey, who 
served with distinction as Administrator of the FAA for the past five 
years, left at the end of her term on August 4. It is important that we 
ensure that the FAA has strong leadership to continue the legacy 
established by Administrator Garvey.
    I initially had some doubts about the depth and breadth of Ms. 
Garvey's aviation experience prior to her being nominated as the FAA 
Administrator, but she proved to be a strong and effective leader at 
the FAA. I think that Ms. Blakey may face some of those same questions. 
However, I believe that Ms. Blakey has exhibited strong leadership 
qualities in her most recent position as Chairman of the NTSB, in 
addition to many other roles held within the Federal Government over 
the years. I expect that she will continue to exhibit these same 
attributes as head of the FAA.
    The confirmation of a new Administrator will mark the second 
appointment after Congress enacted the five-year term provision. I 
believe that it is important for an incoming Administrator to commit to 
a full term. Prior to Ms. Garvey, the Administrator's job was almost a 
revolving door. Ms. Garvey served her full term even after a change in 
administrations. The five-year term is key to the FAA's ability to 
maintain its independence and its status as the premier aviation safety 
agency in the world. The extended term of the Administrator and the 
agency's independence make it essential that its leader be unswayed by 
party loyalties and unaffected by political winds. This stability 
allows the Administrator to focus on public safety and not political 
support.
    The new Administrator will face numerous challenges in the coming 
months and years. Since September 11, much attention has been focused 
on the new Transportation Security Agency. The FAA has continued to 
operate well, but it has not faced the congressional scrutiny during 
the past year that it normally attracts. That is going to change in 
light of the many issues that will soon confront our air transportation 
system. In addition to security, we will need to focus on building new 
runways and infrastructure and expanding existing capacity. The push 
toward a fully modernized air traffic system needs to continue.
    In addition, the FAA's funding is due for reauthorization next 
year. There will be some tension between security and capacity funding 
needs. Further, the collective bargaining agreement between the air 
traffic controllers and the agency is set to expire. These will not be 
easy issues to resolve. In short, the agency must deal with many 
difficult matters in the immediate future. That being said, I am 
committed to working with the new Administrator to ensure that the FAA 
continues to improve the safety and efficiency of our air 
transportation in the years to come.

    Senator Rockefeller. Thank you, Senator McCain.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I cannot 
remain for the entire hearing either, but I did want to come 
today to say I support this nomination. I think the President 
has chosen well.
    I too am a big fan of Jane Garvey's. I think she did a 
really terrific job. But again, this is a good choice and I am 
going to be supporting Ms. Blakey's nomination and do so with 
enthusiasm.
    I do want to mention that there is also a deputy position 
open. It has been open for years, unfilled. There is a chief 
operating officer position, a COO, that we authorized in 
Congress in 1999. It has never been filled. I expect, Ms. 
Blakey, as you assume this job--and I believe the Congress 
certainly will move to support your nomination--as you assume 
this job, I am guessing that you will very much want these 
other positions to be filled.
    I hope the administration will send us names of the quality 
that they have sent for the Administrator's job. But we do--I 
think, given the challenges that we face, we need to have the 
deputy, we need to have the COO that was authorized by 
Congress. We need to have that filled.
    I would just like to mention that we face a lot of 
challenges in air travel, especially commercial air travel, 
these days. I mean, you open up a paper and you see the 
potential bankruptcy of some of the largest carriers, a 
troubled economy and what that spells for the aviation 
industry. And you are going to try to run a system that is the 
largest air traffic control system in the world, be responsible 
for aviation safety and oversee funds for the construction of 
the infrastructure.
    That is going to be a very big job, I think at a very 
important time. So we want to work with you and see that you do 
that job well and help you do that job well.
    I too want to just take the moment on a parochial issue. It 
seems to me that there is a reluctance sometimes on the part of 
Federal agencies to use resources that the Federal Government 
has already invested in and paid for. We have at the University 
of North Dakota what is often referred to as the Harvard of the 
Sky, the Center for Aerospace Science, in fact one of the 
preeminent centers in the country. I think Senator McCain has 
been there.
    They, among other things, train air traffic controllers, 
and they have done contracts with the FAA. I have been there 
and I have watched on both sides of the same board Russian air 
traffic controllers being trained, talking to Chinese air 
traffic controllers in the same room, with an air traffic 
control board separating them. That is done at an educational 
institution with Federal investment having been made over the 
last dozen years or so.
    I really want the FAA to take a look at those capabilities 
that exist around the country, not just at this institution, 
but at others as well, to find out how you can use that 
investment that has already been made to help you train more 
and more air traffic controllers as you need them.
    Let me also say that the rural air service is very 
important. You will hear a great deal about that from Senator 
Rockefeller, Senator Burns, and myself as we go along.
    But I did want to just come to say that I think this is a 
good choice. You have an excellent record of public service. I 
wish you well and I will certainly vote for your confirmation 
with enthusiasm and look forward to working with you.
    Senator Rockefeller. Thank you, Senator Dorgan.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I want to 
associate myself with your remarks, Mr. Chairman, about Ms. 
Blakey. I think she is an excellent choice. I have just a 
couple of comments this morning.
    Ms. Blakey, it is clear that the Transportation Security 
Administration and the Federal Aviation Administration have 
different responsibilities. But to me and I think to the 
public, the bottom line is that unless these agencies can 
jointly develop practical solutions to issues like baggage 
screening there is going to be chaos here in a few months.
    Let me be specific. TSA, the Transportation Security 
Administration, is responsible for baggage screening, but it is 
the airports that have to install the 1-ton giant scanners. It 
is the airports that have to reinforce the floors, reconfigure 
the conveyor belts, and passengers who have to maneuver their 
own bags to the screeners. So there are going to be important 
burdens on the airports.
    One of the areas that I would like to hear you discuss this 
morning is what role do you see for the Federal Aviation 
Administration in working with the airports and with the 
Transportation Security Administration to avoid what I think is 
otherwise going to be chaos for passengers and for airports as 
it relates to these various screening issues.
    Like my colleagues, there are going to be some other 
questions that I would like to examine. I have heard from the 
Federal Aviation Administration that they are concerned that 
very often technological improvements that they would like to 
make are just mired in paperwork, and I would hope that a 
priority on your watch could be to expedite those.
    As we talked about during our meeting in my office, and it 
was a good meeting and I appreciate your doing it, I hope that 
you will continue to build on the record of making consumer-
friendly information available online. For years people had to 
file Freedom of Information Act requests to find out about 
major safety violations at the agency. But Linda Daschle, 
working with this Committee on a bipartisan basis, changed 
that. I would hope that we could build on that. I know that you 
have an interest in safety issues and I would hope that we 
could continue the bipartisan tradition that this Committee has 
had in terms of trying to help consumers with that safety data.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Wyden.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman. Thanks for holding 
this hearing and getting Ms. Blakey into office and getting her 
going.
    I have a couple of parochial questions I want to ask in 
just a little bit. I will take my turn. I will not ask them 
right now or what they even cover. But we welcome you here 
today and we thank you for stepping forward and taking this 
over.
    The FAA is, some have described as, a culture unto its own, 
not without problems. So I think your challenges in the next 2 
or 3 years are going to be many. I happen to believe that we 
made a couple of mistakes in our airport security bill and now 
we are sort of paying for that and seeing what can actually 
happen when you create something and it is never uncreated, in 
fact it becomes a giant that we cannot handle.
    I was in Bozeman the other day, Montana. Now they are 
telling us there that they are going to have to have 76 
screeners in Bozeman, Montana, that loads around 225,000 people 
a year. 76. I do not know what they are going to do. If they 
just run around over each other, maybe they will have a hard 
time getting through each other to help folks out with their 
bags. I am not sure.
    But we have created this and now we are seeing what can 
happen when we, maybe with good intentions, but we also have 
some unintentional things happening that do not make us any 
safer and there is no way they can make us any safer. It is 
just going to cost a hell of a lot of money.
    So I have got a couple of questions with regard to the 
State of Montana. We have a couple of areas up there that we 
have been trying to get their attention the last--ever since I 
have been here--14 years; and so far I guess we have not made a 
strong enough case. But I hope that you will take our 
recommendations and take a look into it and see what we can do 
to fix it.
    Thank you, Mr. Chairman, for this hearing.
    Senator Rockefeller. Thank you, Senator Burns.
    You understand, Ms. Blakey, that the best time to ask the 
questions is before confirmation.
    We now have Senator Fitzgerald.

              STATEMENT OF HON. PETER FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman. Ms. Blakey, 
thank you very much for being here. I think you are going to be 
a great FAA Administrator and I have had the opportunity to get 
to know you a little bit. I think you have a superb record of 
public service in a variety of transportation-related posts, 
most recently at the National Transportation Safety Board.
    I think you are aware of all the challenges the FAA has. It 
is a very tough job, but I think you are probably up to it. I 
think one of the biggest things the country is going to have to 
confront in upcoming years is how we change from a radar-based 
air traffic control system to a global positioning satellite 
system. It will be very complicated to implement. The FAA has 
had difficulty implementing new air traffic control systems in 
the past and so I think there will be significant managerial 
issues that you will confront.
    But I am convinced, on the basis of a review of your record 
and having met you in person on a couple of occasions and 
having had the opportunity to talk to you, that you have the 
makings of a fine FAA Administrator. I am glad that the 
Committee is moving expeditiously here, because we cannot have 
that post vacant for too long. So my thanks to the Chairman for 
having this hearing our first day back from the August break.
    Welcome, Ms. Blakey, and we will look forward to talking to 
you in the question and answer section.
    Senator Rockefeller. Thank you, Senator Fitzgerald.
    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Ms. Blakey, I welcome you, too. As we 
previously discussed, hopefully you will come to Alaska and see 
Capstone working. It is, I think, the greatest new technology 
since radar and really is going to improve our aviation system 
greatly.
    Alaska has seven times more pilots per capita than the 
national average, so if you want to learn something about 
flying come up our way. We will be happy to show you what it 
means. We do not have buses or taxis. Outside of one city, 
everything else is by air. Seventy percent of our communities 
can be reached only by air.
    You have probably the most important job for Alaska that I 
can think of within the Administration, other than the fellow 
that lives at 1600 Pennsylvania. We are making great progress 
right now because of work that your agency has done along with 
various other agencies dealing with past fatalities in our 
aviation community. Safety is on the front burner in Alaska and 
we need your help to make sure those programs go through, like 
the Medallion program--a totally volunteer, industry-conceived 
and industry-operated program. You cannot tell Alaskan pilots 
what to do from Washington, but you can let them tell 
themselves what to do from Alaska, and it is working very well.
    So I urge you to come up and see it any time. You follow in 
really big shoes.
    Thank you very much.
    Senator Rockefeller. Thank you, Senator Stevens.
    Senator Allen.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. I especially thank 
you for holding this hearing on this very important position. I 
certainly look forward, and I have read your remarks, Ms. 
Blakey, to your being the Administrator of the FAA. The 
Administrator of the FAA has always been a very important 
position--enormously important--and vital to our economy, 
communities, the States, and jobs. In our economy, obviously, 
how the aviation industry is moving does have an impact on 
jobs. It is down now, but you recognize that it will be back.
    I am glad to see that you have noticed the need for air 
traffic control modernization and also, now more than ever 
since September 11th, the need for security. Really, you have 
one of the most challenging positions in the entire 
Administration.
    I would say, Mr. Chairman, that Ms. Blakey is an 
outstanding choice to be Administrator of the Federal Aviation 
Administration. You have impressive credentials and background, 
and I commend the President for this outstanding choice.
    Now, I will certainly, and I think this Committee will, 
work with you for the modernization of the air traffic control 
system. It has been needed for a long time. We need to work 
together and get it done. I am pleased that in your written 
responses to the Committee's questions, you mention air traffic 
control modernization as one of your top priorities in the 
first 2 years of your administration of FAA.
    I encourage you to look at new technologies, how technology 
can help us in scheduling, in creating virtual domes around 
protected areas--whether they are nuclear power plants or 
buildings such as the Capitol or others. Embrace advances in 
technology.
    Senator Dodd and I will be introducing or planning to 
introduce an aeronautics revitalization bill this month 
intended to reverse the trend of reduced funding for 
aeronautics research and development. The bill will hopefully 
include provisions addressing air traffic control management 
and modernization issues. So, therefore, we look forward to 
working with you. I am sure Senator Wyden also--we have worked 
together on these issues--will join with us.
    On another matter, since Senator McCain brought up a 
parochial issue, I shall as well. That has to do with Reagan 
National Airport. As you well know, general aviation continues 
to be prohibited at Reagan National Airport. Secretary Mineta 
at a hearing on aviation security here in May, when queried by 
me on the situation, said that the plan would be announced by 
the end of the month. We then had another hearing in July, and 
I asked him again about the Department's plan to open Reagan 
National to general aviation.
    We are now nearly a year from the tragic events, and Reagan 
National remains closed to general aviation. It is my hope that 
we can work together to find the right security, the right 
procedures, so that we can have secure general aviation back at 
Reagan National Airport. I look forward to working with you on 
this challenging subject.
    I know it is not solely your decision. I know the Secret 
Service is involved. If they had their way, Reagan National 
would probably be closed to commercial aviation as well. So we 
need to build good security, sound security, enhanced obviously 
for Reagan National, but get it back open for general aviation.
    Again, thank you, Mr. Chairman, for holding this hearing in 
such a timely manner, and I look forward to working with you 
and hearing your responses to various questions. Thank you all.
    Senator Rockefeller. Thank you, Senator Allen.
    Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thanks very much for having 
this hearing. I will be very brief.
    Let me just say, first of all, Ms. Blakey, we welcome this 
opportunity to explore some issues with you. I had some 
reservations about proceeding earlier on this and I want you to 
know that it has nothing to do with the question of your 
qualifications whatsoever. You are eminently qualified and I 
think it is important to, obviously, get somebody in this job.
    But I did think it was important to try to signal concern 
that a number of us have about existing employees within the 
FAA who are members of AFSCME who had a contract that has been 
in existence--let me just say, that was agreed upon between the 
FAA at the end of the Clinton Administration, and there is a 
disagreement between the parties now as to what procedure might 
have been followed after that. But for an unknown reason it has 
been sent to OMB and it has sort of been held there, which was 
not part of the agreement at the end of the Clinton 
Administration.
    So there are some 2,000 employees whose morale is low, 
whose capacities are not being utilized to the fullest as a 
consequence of this situation. I think it is really important 
to try to get that resolved. I do not think that anyone is well 
served by having a year and a half go by in which the contract 
sort of sits in limbo.
    The message that is sent by that is I suppose discernible, 
if indeed that is the message that is meant to be sent. If it 
is not the message that is meant to be sent, then there is no 
reason not to complete the mission, so to speak.
    Second, Boston Logan Airport is one of the few places in 
the country that is going to meet the screening deadline on 
time. We are proud of that, particularly because of the sad, 
tragic association of that airport with the events of last 
year. But it is having great trouble getting compensation under 
the TSA for the expenditures and for the layout. I think again, 
if there is going to be that kind of sort of slow response--I 
know that is not directly under you. I think you as a 
prospective Administrator will have an enormous capacity to be 
able to have an impact on those kinds of decisions because you 
still will have a very serious role with respect to airport 
safety.
    The final comment I just want to make very quickly is there 
are a whole slew of issues, obviously, which for a long time 
have been subject to enormous bureaucratic resistance. It is 
the bane of all of our existence. It bears no party label. It 
has happened in both administrations, Republican, Democrat. But 
somehow the economy and the safety of our airways and the 
capacity of our airports to be maximized and of our ability to 
move goods and people, both of which are essential for the 
growth of our country, are restrained as a result, just because 
there is this inertia, this unwillingness to try and move and 
make decisions, whether it was getting screening equipment into 
airports or whether it is resolving some of the airway 
congestion.
    Speaking to what Senator Allen just said, there seems to be 
a defiance of common sense in some of the security procedures 
and some of the ways in which we are approaching decisions 
about aircraft routes and flights and so forth. There has to be 
a way that one can create a clearance system for general 
aviation with pilots, many of whom are ex-American military, 
who have security clearances, who have all the ability in the 
world through codes, transponders, and other things to signal 
whether there is a problem on the tarmac or whether there has 
been a hijack, whatever.
    There are ways to create a system that does not have to 
shut down commercial enterprise the way we are today. There are 
ways to facilitate the flow of people through our airports with 
the modern technology of personal identification that we have 
today, to be able to create less lines, less backup, and less 
sort of stupid--the story, I know it is a nice symbol to have 
Al Gore stopped with everybody else, with his arms out and so 
forth, being searched. But if everybody does in fact know who 
that person is, while four other people may pass by who might 
better have been served with that kind of search, it does not 
make sense, and I do not think anybody here thinks it does make 
sense.
    So there has to be, I hope, a way to try to streamline the 
capacity of our country to sort of facilitate people's flow 
through airports and to again de-congest the airways, which 
have been an ongoing problem for some period of time, more 
rapidly and more effectively. I really hope that you will set 
about to rapidly examine and try to implement those 
methodologies. I thank you for that.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Kerry.
    I might just mention, Ms. Blakey, that in flying home from 
one of our many, many flights from West Virginia to this area 
last night, I went through a complete search and took my shoes 
off, and it was good. So I disagree a little bit with Senator 
Kerry.
    My point is that it is not--the people who were doing it 
were sort of embarrassed about it. But I, evidently, had 
something in my shoe or something that bothered them and they 
had to do that. In fact, other passengers were watching it and 
I think it sort of democratized the process. You know, 
everybody is going to get the same treatment, and this is one 
of the problems. The pilots did not like that for a while. 
Well, too bad. You know, everybody gets the same treatment, and 
if you are going to be security conscious you have got to be 
security conscious on an equal basis.
    I do not mean to disagree specifically with the example of 
Senator Kerry, but I was glad I went through that process last 
night. And I know how to knot up my sneakers and everything, so 
that worked out OK.
    Senator Kerry. Maybe you have knowledge about your own 
proclivities that nobody else does.
    Senator Rockefeller. Well, that may be. But you understand 
my point. There are two sides to that and it is a difficult 
issue.
    Let me ask a couple of questions. We will go by the 5-
minute rule here. This is on staffing needs. The Secretary 
indicated that he had to have $100 million and he was 
appropriated $42 million with another $33 million that could 
have come out of the Airport Trust Fund. That was in order to 
do the hiring that he needed to do. Otherwise he was going to 
have to furlough lots of employees.
    Now, being involved with aviation as I am, I think it is 
essential that Congress do what is necessary to keep our 
aviation system moving and having it fully staffed. So I am 
wondering, how do you react to this question of shortfall, 
potential large or medium-sized shortfall in terms of funding, 
particularly as it affects inspectors and controllers?
    I have made a rather large error. You would like to say 
something. So if you could try to remember my question, which I 
will be glad to repeat.
    Ms. Blakey. I can.
    Senator Rockefeller. That is what happens when we all talk 
so long. Sometimes you forget.
    Ms. Blakey. Well, that is all right.
    Senator Rockefeller. You are not under the 5-minute rule. 
You can talk for however long you want, and I apologize to your 
husband and to your daughter.

         STATEMENT OF MARION CLIFTON BLAKEY, CHAIRMAN,
            NATIONAL TRANSPORTATION SAFETY BOARD AND
             ADMINISTRATOR-DESIGNATE OF THE FEDERAL
                    AVIATION ADMINISTRATION

    Ms. Blakey. Not at all. On the theory that perhaps a few 
comments here might address some of the broad concerns that 
have been expressed from the members of this Committee, I will 
try to make them very brief. But I do want to start by thanking 
you, Mr. Chairman, and this entire Committee for holding this 
hearing so promptly, the day after recess. This was a very real 
vote of support for the FAA and I appreciate it personally 
because I do hope we can move forward together.
    I also want to tell you that it is certainly an honor from 
my standpoint to appear here as the President's nominee to be 
Administrator of the Federal Aviation Administration. I realize 
that there are enormous challenges in this job, but at the same 
time, I cannot tell you what an honor it is to me personally, 
and a vote of confidence in a lot of people I have worked with 
at the NTSB and elsewhere, to be asked to take this on.
    I also do want to thank my family for being here, my 
husband Bill, my daughter Mona. They have obviously been with 
me and supported me during a lot of challenges and I have a 
feeling I am going to have to call on them again in this 
position as well.
    I also do want to acknowledge the exceptional leadership 
that the President, Secretary Mineta, Deputy Secretary Jackson, 
who is here with us today, and Administrator Garvey showed in 
the wake of the tragedy of 9-11. Not only have they 
strengthened the safety and the security of this country, but 
they have also worked very hard to help our aviation industry 
rebound, and for that I think we are all grateful.
    Should I be confirmed, I intend to work very hard to 
advance their critical efforts along these lines and to work 
with you to ensure that the United States aviation system is 
literally the safest, most secure, and most efficient 
transportation system in the world.
    Now, I have been privileged, as several of you have noted, 
to have some years ago served as the head of the National 
Highway Traffic Safety Administration and most recently as the 
Chairman of the National Transportation Safety Board. The NTSB 
has an exceptional group of professionals who work each and 
every day to advance public safety in all modes of 
transportation. But, simply put, without the support in so very 
many ways of this Committee, public safety would not be where 
it is today and certainly the work of the NTSB could not go 
forward. So I would be very remiss if I did not personally take 
time to thank you for that.
    As Chairman of the NTSB, I have had the opportunity to work 
closely with the FAA, with industry leaders, airport leaders, 
citizen groups, transportation union officials, as well as 
Members of Congress, on many of the safety issues facing our 
aviation system. I have also seen firsthand the importance of 
cooperation and partnership between the public and private 
sectors.
    I have to say that among the many notable achievements of 
Jane Garvey one thing really stands out, and that is a strong 
system of consensus-building, and partnership, that she 
achieved between the public and private sector. It is one of 
her key legacies and in point of fact, if confirmed, I will 
work very hard to buildupon that approach to meet the agency's 
current and future challenges, because they are real, as you 
have noted, and work to have real partnerships, not only with 
the aviation community itself, but with the broader group, the 
flying public, the manufacturers, airlines, the GA community, 
and our transportation leaders at State and local levels.
    You all have noted many challenges in the system. Let me 
first just mention a couple because I do think it is important 
to try to have our priorities straight from the outset. Almost 
everyone here has mentioned security and I have to say that 
cooperating with the Transportation Security Administration to 
both maximize safety as well as security, while allowing the 
system to operate efficiently, is a top priority.
    Ensuring the world's safest skies become even safer is also 
a major priority in and of itself. This includes implementing 
the NTSB safety recommendations, developing innovative programs 
such as the FAA's Flight Operational Quality Assurance 
Program--I know it affectionately as ``FOQA''--that really does 
advance our work by giving us precursor information, data from 
pilots and those on the front lines, about what is really 
happening in the system; and looking to advance the 
technologies that are out there, to really implement them in a 
way that is going to make navigation safety on the front lines 
in our technology.
    Third, I think we need to talk about maximizing the 
aviation system's efficiency to accommodate all of the 
increases we are talking about in traffic. I personally have 
great confidence that this system is going to rebound and when 
it does we must not be caught flatfooted. We have to therefore 
continue to work to advance the air traffic system and improve 
the use overall of the Nation's airspace.
    Finally, I have to say that I was so encouraged to hear a 
number of you mention the importance of filling positions at 
the FAA, because establishing a strong management team--no one 
person can do this job alone--is critical, and I would 
certainly say that filling the chief operating officer position 
in particular is one that I want to move very quickly to 
address.
    Next year this Committee is going to consider the 
reauthorization of the FAA's programs and it will be time to 
assess the agency's performance, set priorities, realign them 
if necessary, and look at the mission and the way we are 
approaching this, and whether we have the necessary funding as 
well as statutory authority to do the job. If confirmed as 
Administrator, I will work very closely with this Committee to 
ensure that the agency's reauthorization process provides a 
platform, a real starting point to ensure that we go to a new 
peak of both safety and efficiency.
    You know, it has been said that the hallmarks of basic 
airmanship are practical application of training, skill, 
experience, and professional judgment, which is exactly what 
our pilots, our crews, our controllers, and everyone involved 
in aviation in this country does on a daily basis. I believe 
they do it better than anyone else in the world. As a result, I 
am very honored, Mr. Chairman, by the trust that the President 
and others have placed in me in asking me to be the nominee for 
this position.
    If confirmed, I pledge that I will do my best to guide the 
FAA through the many challenges that you and others have 
enumerated that face the FAA in the days and years ahead. I 
hope to do it with the same level of skill, experience, 
judgment that has been shown by my colleagues in aviation day 
in and day out.
    I would like to thank the Committee again for the swift 
consideration of my nomination. I would be happy to entertain 
questions. Thank you.
    [The prepared statement of Ms. Blakey follows:]

    Prepared Statement of Marion Clifton Blakey, Chairman, National 
Transportation Safety Board and Administrator-Designate of the Federal 
                        Aviation Administration

    Mr. Chairman, Senator McCain, and distinguished members of the 
Committee:
    It is truly an honor to appear before you today as President Bush's 
nominee for Administrator of the Federal Aviation Administration (FAA). 
Thank you for holding this hearing so promptly. I know your schedules 
are full, and the Senate has a packed agenda, so I will keep my opening 
remarks brief and allow as much time as possible for questions.
    Mr. Chairman, I know the President and Secretary Mineta share this 
Committee's concern that there be strong leadership at the FAA. Indeed, 
this is a critical time for our Nation's aviation industry. For this 
reason, the FAA's important work in ensuring aviation safety, improving 
the nation's air traffic control system, and meeting aviation capacity 
challenges must continue without interruption or delay. Should the 
Senate honor me with confirmation, I will work hard to ensure a smooth 
transition and a strong management team at the FAA.
    At this time I want to acknowledge the exceptional leadership 
provided by the President, Secretary Mineta, and Administrator Garvey, 
especially in the wake of the September 11th tragedies. Not only have 
they strengthened the safety and security of our country, but they have 
also worked hard to help our aviation industry rebound. Should I be 
confirmed, I intend to advance their critical work by making sure that 
the United States' aviation system is the safest, most secure, and most 
efficient air transportation system in the world.
    It should come as no surprise that I emphasize safety. As you know, 
at an earlier point I headed the National Highway Traffic Safety 
Administration, and now I am Chairman of the National Transportation 
Safety Board (NTSB). I want to take this opportunity to thank the 
Committee for all its support of the NTSB and its employees. Each and 
every day, the men and women of the Safety Board strive to protect and 
advance public safety in all modes of transportation. They are an 
exceptional group of professionals, and I can honestly say that nothing 
has been more rewarding to me than working with them to strengthen the 
safety of our transportation system.
    If confirmed I will be tasked with assessing and implementing many 
of the recommendations that the NTSB has issued to the FAA, and I will 
no doubt find myself responding to letters I've written. Taking action 
in many cases will be challenging, but I intend to follow through on 
the NTSB's recommendations vigorously. As I looked back through our 
records, I saw letters where former FAA Administrator Don Engen was 
also being tasked by himself and--if he were still with us--I'm sure he 
could offer me sound advice.
    As Chairman of the NTSB, I have had the opportunity to work closely 
with the FAA, with industry leaders, airport officials, citizen groups, 
transportation labor leaders, as well as with Members of Congress on 
many major aviation safety issues. I have also seen first-hand the 
importance of cooperation and partnership between the private and 
public sectors in advancing safety. Among Jane Garvey's many notable 
achievements, one of her key legacies is a strong system of consensus 
building between the public and private sectors. If confirmed, I intend 
to support and build on this approach to meet the agency's current and 
future challenges through partnerships with the aviation community--
including the flying public, the manufacturers, the airlines, the 
general aviation community and transportation labor leaders.
    What are these challenges? Let me briefly discuss what I believe 
are just a few of the major challenges confronting the FAA.
    It is fortuitous that this hearing should take place during the 
same week the Senate is considering landmark legislation to establish 
the Department of Homeland Security, which would include the 
Transportation Security Administration (TSA) as one of its core 
components. The creation of this new department highlights one of the 
major challenges currently facing the FAA--how best to maintain and 
increase the focus on aviation safety in a post 9-11 environment in 
which security concerns are paramount. As I said, I believe cooperation 
is essential. The FAA must work closely with TSA to maximize safety and 
security while allowing the system to operate effectively. I know this 
is a priority for Secretary Mineta, and it will be a priority for me, 
should I be confirmed.
    Improving security while ensuring that the world's safest skies 
become even safer is a challenge. By implementing NTSB safety 
recommendations, developing innovative programs, and working with the 
aviation industry, the new Administrator can help further reduce the 
nation's accident rate.
    One important way to drive down the nation's accident rate is to 
expand our understanding of the human factor--the single largest 
contributor to aviation accidents. In part, we can do this by 
collecting and analyzing as much information as possible. The FAA's 
Flight Operational Quality Assurance Program (FOQA) will play an 
important role in accomplishing this goal. Twelve airlines currently 
participate in the FOQA program, which enables voluntary reporting of 
digital flight data from airline operations. This information is then 
analyzed to identify adverse safety trends for proactive accident 
prevention. I believe that FOQA--and programs like it--will play a 
significant role in reducing the nation's accident rate.
    The new Administrator will also be confronted with maximizing the 
aviation system's efficiency in order to accommodate anticipated 
increases in traffic. Meeting this challenge will involve both 
continuing to modernize the system as well as developing improved 
utilization of the nation's airspace. Before September 11th, the FAA 
predicted considerable growth in the aviation industry. Although the 
industry is currently experiencing a slowdown, many experts predict 
that the industry will soon return to pre-September 11th levels. This 
increase will intensify safety concerns as well as capacity pressures. 
The FAA has utilized the tools provided by Congress, including 
procurement reform, to sustain, renew, and expand the capabilities of 
the air traffic control system. Some of the tools in place are 
providing system users with tangible benefits, such as more direct 
routing and reduced diversions in inclement weather. But system 
modernization is a continuous process, and the pressure to develop and 
implement new tools must be maintained in order to meet tomorrow's 
demands.
    Until recently, the use of our airspace remained largely unchanged 
while other components of the aviation system were improved 
significantly. Maximizing the nation's airspace efficiency is critical 
to meeting future capacity demands. I think the FAA's Operational 
Evolution Plan (OEP)--a comprehensive 10-year plan that provides an 
understanding of how agency resources will enable the agency to achieve 
specified goals--is an excellent management tool. This plan, which 
includes airspace redesign, airport improvements, and system 
modernization, is only a blueprint. Executing the plan is critical and 
will require the combined efforts of Federal, State, and local 
government and system users.
    Finally, the staffing and internal organization of the FAA requires 
attention. The search for a Chief Operating Officer (COO) continues. 
Although filling the position won't be easy--it must remain a top 
priority. As you know, an Air Traffic Organization (ATO) is in the 
process of being created. Important safety and efficiency initiatives, 
such as performance metrics and cost accounting must be expanded and 
implemented. Based on my experience at NHTSA, at the NTSB, and in the 
private sector, I know that in order to accomplish an organization's 
mission you have to employ the best people, give them the best tools, 
and support them with appropriate resources. If this is done correctly, 
then true accountability for performance can be achieved.
    Next year, this Committee will consider the reauthorization of the 
FAA's programs. It will be a time to assess the agency's performance, 
set priorities, and support its missions with the necessary funding. It 
will also be important to have extensive input and feedback from the 
aviation community on how best to build on and further improve the 
aviation system's safety record. If confirmed as Administrator, I will 
work closely with the Committee to help ensure that the FAA's 
reauthorization process provides a platform to take our system to a new 
peak of safety and efficiency.
    Mr. Chairman, I am honored by the trust the President has placed in 
me as his nominee. If confirmed, I pledge to do my utmost to guide the 
FAA well through the many challenges that lie ahead. I would like to 
thank this Committee again for its swift consideration of my 
nomination, and I look forward to a close working relationship should 
the Senate act favorably. I would be pleased to answer any questions 
you may have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Marion Clifton Blakey.
    2. Position to which nominated: Administrator, Federal Aviation 
Administration.
    3. Date of Nomination: Not available.
    4. Address: Information is not available to the public.
    5. Date and place of birth: Information is not available to the 
public.
    6. Marital status: Husband: William Ryan Dooley.
    7. Names and ages of children: Daughter: Mona Topp Dooley, Age 14.
    8. Education: High School: Sidney Lanier High School, Montgomery, 
Alabama, 1963-1966, Diploma received 1966. College: Mary Washington 
College, Attended September 1966 to May 1970, BA received 1970; 
Universita di Fireneze, Attended June 1969 to August 1969, no degree; 
Universita Per Stranieri, Attended March 1969 to June 1969, and Diploma 
received. Graduate school: John Hopkins University, School of Advanced 
International Studies, Attended from 1971 to 1973, Completed 1 year of 
a 2-year Masters degree.
    9. Employment record: National Endowment for the Humanities, 
November 1970-August 1984, 1200 Pennsylvania Ave., Washington, DC, 
Director of Public Affairs, Program Specialist. Department of 
Education, October 1985-Novenber 1987, 400 Maryland Ave., Washington, 
DC, Director of Public Affairs. The White House, November 1987-August 
1988, 1600 Pennsylvania Ave., Washington, DC, Special Assistant to the 
President for Public Affairs. The White House, August 1988-February 
1989, 1600 Pennsylvania Ave., Washington, DC, Deputy Assistant to the 
President for Public Affairs & Communications Planning. Department of 
Commerce, March 1989-July 1989, 14th & Constitution Ave., Washington, 
DC, Consultant. Department of Commerce, July 1989-August 1990, 14th & 
Constitution Ave., Washington, DC, Director, Office of Public Affairs. 
Department of Transportation, August 1990-September 1992, 400 7th St. 
SW, Washington, DC 20590, Assistant Secretary for Public Affairs, 
USDOT. Department of Transportation, September 1992-January 1993, 400 
7th St. SW, Washington, DC 20590, Administrator, NHTSA, USDOT. Blakey & 
Associates, 1993-2001, 1501 M Street NW, Washington, DC 20005, 
President. National Transportation Safety Board, September 2001-Present 
490 L'Enfant Plaza East, SW, Washington, DC 20594, Chairman.
    10. Government experience: Served as a member of the Commission on 
Presidential Scholars, 1989-1990. Served as a consultant to U.S. 
Department of Transportation January 2001.
    11. Business relationships: Blakey & Associates, Inc.--President.
    12. Memberships: 1993 to present--National Advisory Committee of 
Best Friends Foundation. 1994 to present--Executive Committee CARE 
ball, Washington, DC. 1997 to 2000--Vestry, St. John's Church at 
Lafayette Square. 2002--Advisory Board, The Belizian Grove 
(professional women's group)
    13. Political affiliations and activities: (a) None. (b) Volunteer, 
Republican National Convention, 2000. (c) May 1995--People for Pete 
Domenici, $1000.00. May 1995--Joe Skeen for Congress Inc, $500.00. Dec 
1995--Dole for President, $1000.00. June 1996--Republican National 
Committee, $1,000.00. February 1999--Dan Quayle, $1,000. February 
1999--Elizabeth Dole, $1,000. June 1999--George W. Bush, $1,000. June 
1999--George W. Bush, $1,000. August 2000--Spencer Abraham, $1,000. 
October 2000--Republican National Committee, $5,000.
    14. Honors and awards: National Merit Finalist, 1966. Pi Gamma Mu 
National Social Science Honorary, 1970. Belk Foundation Award, 1966. 
UDC National 4-year scholarship, 1966-1970. Judge, TV and radio awards, 
Corporation for Public Broadcasting, 1980. Member, Commission on 
Presidential Scholars, 1989. Honorary Doctor of Science Degree, College 
of Aeronautics, 2002. Alumni Member, Phi Beta Kappa, Mary Washington 
College, 2002. Distinguished Alumni Program, Mary Washington College, 
2002.
    15. Published writings: Remarks of Marion Blakey at the Automotive 
News World Congress, published in Automotive News, February 22, 1993. 
``Good Call, Mr. Pena,'' Marion Blakey, The Washington Post, December 
9, 1994. ``The Air Bag Battle . . . the Claybrook Speech,'' Diane 
Steed, Jerry Curry & Marion Blakey, The Washington Post, December 13, 
1996. ``Back Seat is Safest for Children,'' Letter-to-the-editor, 
Marion Blakey, USA Today, July 12, 1996. ``Getting hardcore drunk 
drivers off the road,'' Marion Blakey & John Lawn, State Government 
News, June/July 1998. ``Getting hardcore drunk drivers off the road,'' 
Marion Blakey & John Lawn, The Washington Post, May 20, 1998. ``U.S. 
Hardcore drunk drivers using flawed legal system,'' Marion Blakey, The 
Beaumont Enterprise, October 29, 1999. ``Confronting the problem of 
Hardcore Drunk Drivers,'' Marion Blakey, Impaired Driving Update, 
January/February 1999. ``Combating Hardcore Drunk Driving: A Sourcebook 
of Promising Strategies, Laws & Programs'' (The Century Council) 1997. 
``Criminalizing Auto Defects is Unsafe,'' Marion Blakey, The Wall 
Street Journal, September 26, 2000. ``Missouri Booster Seat Legislation 
will Save Children's Lives,'' Marion Blakey, St. Louis Post Dispatch, 
April 1, 2002.
    16. Speeches: October 16, 2001, National Association of Governor's 
Highway Safety Representatives annual meeting, Long Beach, California 
(Speech). October 25, 2001, National Safe Kids/NAACP/UAW/GM Child Car 
Seat Inspection and Giveaway Event, Baltimore, Maryland (Speech). 
January 12, 2002, Annual Management Conference National Railroad 
Construction and Maintenance Association, Inc., Miami, Florida 
(Speech). January 20, 2002, International Bus Expo, United Motorcoach 
Association, Indianapolis, Indiana (Speech). January 23, 2002, 
Association of Oil Pipelines Annual Winter Meeting, Washington, DC 
(Speech). January 30, 2002, NTSB Annual Awards Ceremony (Speech). 
February 7, 2002, Child Passenger Safety Week Press Conference, 
Washington, D.C. (Speech). April 15, 2002, Safety at Sea and Marine 
Electronics Exhibition and Conferences, Amsterdam, Netherlands 
(Speech). April 23, 2002, NTSB Diversity Day Celebration (Speech). 
April 30, 2002, American Automobile Association National Conference, 
Chicago, Illinois (Speech). May 6, 2002, American Association of 
Airport Executives, Atlantic City, New Jersey (Speech). May 8, 2002, 
Virginia Department of Motor Vehicles, Richmond, Virginia (Speech). May 
15, 2002, Address to NTSB Employees (Speech). May 18, 2002, College of 
Aeronautics Commencement, New York, New York. May 23, 2002, Aero Club 
of Washington, DC (Speech). June 10, 2002, Lifesavers Conference, 
Orlando, Florida (Speech). June 18, 2002, Flight Safety Foundation 
(Speech). June 21, 2002, MADD Board of Directors (Speech). July 10, 
2002, ATA Safety Council (Speech).
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President? I believe I was chosen for this position 
because I have a long-standing commitment to transportation safety, and 
I have developed my leadership skills and executive management 
experience in both the public and private sector. My experience as 
Chairman of the National Transportation Safety Board (NTSB), 
Administrator of the National Highway Traffic Safety Administration 
(NHTSA), Assistant Secretary for Public Affairs at the Department of 
Transportation (DOT) and owner of a public affairs firm has prepared me 
to deal with the challenge of managing the Federal Aviation 
Administration (FAA).
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? The goal 
of the FAA is to provide the safest, most secure, and most efficient 
air transportation system in the world. As Chairman of the NTSB for the 
past 10 months, I have worked closely with the FAA to achieve its goals 
and to improve the safety of the nation's aviation system. As Chairman, 
I not only have developed an understanding of the major safety issues 
facing the aviation industry, but I also have attempted to build a 
productive working relationship with Congress and many of the 
industry's leaders--in both the private and public sectors.
    Over the past two decades, I have consistently worked on 
transportation-related issues. I served as Assistant Secretary for 
Public Affairs at the U.S. DOT from 1990 to 1992. In this capacity, I 
worked with the FAA, the Coast Guard, the Federal Railroad 
Administration, and other modal administrations. I then served as 
Administrator of the NHTSA and worked to reduce the high number of 
deaths and injuries on our country's highways. I was responsible for 
dealing with automotive regulatory and safety matters as well as 
managing broad public education campaigns concerning traffic safety 
issues, such as drunk driving and the use of safety belts.
    Prior to my service as Chairman of the NTSB, I ran a public affairs 
consulting practice that concentrated on transportation safety.
    Finally, my thirty years in both government and the private sector 
have given me the experience to deal with the management challenges of 
administering the FAA. In addition to my management experience, my many 
years as a career civil servant have given me an understanding of the 
rank and file of government as well as the supervisory level.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? I currently have no such connections.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships that could involve potential conflicts of interest in the 
position to which you have been nominated. Please refer to General 
Counsel's Opinion letter enclosed.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None. Potential conflicts 
relating to my prior position as President of Blakey & Associates have 
been resolved. Please refer to General Counsel's Opinion letter 
enclosed.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration ,and execution of law or public policy. Between 1993 and 
2002, I served as a consultant to businesses and non-profit 
organizations, providing counsel and assistance on a number of areas of 
public policy. For the most part, our firm's work involved strategic 
planning and communications assistance rather than direct lobbying, 
although we often provided public relations assistance for lobbying 
efforts. For example, in the past, Blakey & Associates worked on behalf 
of a group (the Coalition for America's Gateways and Trade Corridors) 
we helped form. Our firm provided policy development, coordination, and 
public relations support to this group to increase funding for 
intermodal freight infrastructure in the United States.
    We also worked on behalf of the Airport Council International on 
legislation increasing passenger facility charges and other matters.
    In addition, as Chairman of the NTSB, I testified before the House 
and Senate Authorization and Appropriations Committees. I also 
testified on behalf of the NTSB in hearings related to rail and highway 
safety.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Please 
refer to General Counsel's Opinion letter enclosed.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. As 
Administrator of the NIITSA, I played an active role in ensuring that 
the agency's regulations complied with Congress' intentions. I worked 
to foster open communication and participation between Congress, the 
public, and affected parties. If confirmed as Administrator of the FAA, 
I will continue the practice of active involvement in the review and 
enforcement of regulations.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The FAA's goal is to ensure 
that the United States' aviation system is the safest, most secure, and 
most efficient air transportation system in the world. The FAA fulfills 
its mission by implementing and enforcing air traffic control 
regulations and procedures. Further the FAA is responsible for 
regulating aircraft, pilots, maintenance personnel, airports, and 
commercial space launch activity. The FAA's operational objectives must 
support all of the above-mentioned services at the best value to the 
taxpayer.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated. Over 
many years, I have demonstrated a strong commitment to transportation 
safety as well as effective leadership skills and extensive executive 
management experience in both the private and private sector.
    As Chairman of the NTSB for the past 10 months, I have worked 
closely with the FAA to improve the safety of the Nation's aviation 
system. In that position, I have developed a keen understanding of the 
major safety issues facing the aviation industry, and have affirmed my 
strong commitment to transportation safety. I have also worked to build 
a productive working relationship with Congress and many of the 
industry's leaders--in both the private and public sectors.
    Before my tenure at the NTSB, I worked on transportation issues for 
over a decade. At the DOT, I served in senior management positions and 
worked closely with the FAA, the Coast Guard, the FRA and other modal 
administrations on a number of difficult safety problems. In 
particular, my service as Administrator of NHTSA provided me experience 
with issues such as traffic safety, motor vehicle engineering, and 
driver behavior.
    Between 1993 and 2001, I ran a public affairs consulting practice 
that concentrated on transportation safety.
    Finally, my thirty years in both government and the private sector 
have given me the experience to tackle the management challenges of 
administering the FAA. In addition to my management experience, my many 
years as a career civil servant have given me an understanding of the 
rank and file of government as well as of the supervisory level.
    2. Why do you wish to serve in the position for which you have been 
nominated? I believe a safe, secure, and efficient air transportation 
system is critical to the Nation's prosperity and well-being. I cannot 
think of a more important service--especially during these challenging 
times--that I could perform. I have worked closely with the FAA over 
the years, and I am deeply honored that the President has nominated me 
as to serve as Administrator.
    3. What goals have you established for your frst 2 years in this 
position, if confirmed? I believe it would be premature for me to 
establish multi-year goals until after I am confirmed as Administrator 
and have had the opportunity to examine in depth the agency's current 
and upcoming issues. I would be comfortable, however, stating that 
future goals would fully embody the FAA's long-standing strategic 
initiatives regarding enhancements in safety, efficiency, and air 
traffic control modernization.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? Although much of the work I have done as 
Chairman of the NTSB over the past 10 months has been in the aviation 
field and related to complex, technical aviation issues (including 
those involved in the ongoing accident investigation of American 
Airlines flight 587), I intend to continue to increase my technical 
aviation expertise.
    5. Who are the stakeholders in the work of this agency? As the 
aftermath of September 11th demonstrated, a safe, secure, and efficient 
air transportation system affects the economic prosperity of all 
Americans. Every person in our country has a stake in the work of the 
FAA, including the employees themselves, pilots, air-traffic 
controllers, CEOs, airline employees, and all who travel by air. 
Certainly citizens in other countries have a stake in the work of the 
FAA as well since our transportation systems cross international lines.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 5. I 
strongly believe that the FAA needs to be responsive to all 
stakeholders, whether they are individual passengers concerned about 
airline safety and security, the CEOs of airlines, union members, 
aviators involved in enforcement proceedings, or Members of Congress 
requesting clarification of an FAA regulation or information about an 
FAA program or project. Our stakeholders are also our constituents, and 
as Administrator, I will emphasize to all employees the need for 
responsive, accurate and timely constituent service.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? As 
Administrator I would work closely with the DOT's Chief Financial 
Officer to become knowledgeable about the FAA budget, to understand the 
roles and responsibilities of the FAA's departments, and to ensure that 
the FAA is complying with agency financial plans and statutory 
requirements. As Administrator, I would be responsible for ensuring 
careful, prudent, and efficient use of taxpayer money in caring out the 
mission of the FAA.
    (b) What experience do you have in managing a large organization? 
As Administrator of NHTSA, I managed an agency of 660 people with a 
budget of $270 million. I served in Federal management positions for 
over 20 years, including my recent tenure at the NTSB with 450 people 
and a budget of approximately $70 million. I also started and ran a 
successful private=sector business. While I recognize that every agency 
is unique and has its own administrative challenges, I believe my 
management and communication skills are significant strengths I bring 
to this job.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Identifying performance goals consistent with 
President Bush's and Secretary Mineta's goals and reporting on the 
progress in achieving those goals are good business practices. These 
actions provide planning, focus, and accountability to the agency--
three things necessary for a well-run organization. When done 
correctly, these initiatives help FAA managers determine whether the 
existing commitment of resources serves the public's interest and 
reflects the agency's achievements and progress.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? Ensuring achievement of an agency's performance goals 
should be a top priority for any agency head. If confirmed as FAA 
Administrator, I will work closely with our authorizing and 
appropriating committees and will make sure I am aware of Congressional 
concerns about the performance of any of the FAA's departments or 
programs before steps such as elimination or privatization become 
necessary. When concerns are expressed, I am committed to investigating 
them and to working with Congress to improve the situation.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? I believe my personal 
performance goals should be directly related to the mission of the FAA. 
They should require that I manage the agency's work with skill and 
integrity and that I provide a regular accounting to President Bush, 
Secretary Mineta, the Congress and the public on how well the agency is 
meeting its stated goals.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? My philosophy of 
supervision has always been characterized by a collegial, team approach 
that values specific technical knowledge as well as managerial skills 
and seeks to vest authority, whenever appropriate, in those who have 
the most expertise in a given area. At the same time, I believe the 
role of a strong supervisor is to set high goals and clear objectives, 
to provide resources and tactical guidance as needed, to work with 
employees to ensure success, and to assess that work regularly against 
agreed-upon goals and standards.
    To the best of my knowledge, no employee complaints have ever been 
brought against me.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. As Chairman of an independent 
agency, I have developed a close working relationship with many 
Congressional members and committees. During my tenure at the NTSB, I 
have met regularly 14 with Congressional leaders, members and staff of 
the Board's House and Senate Appropriation and Authorization 
Committees. Since February 2002, I testified six times on 
transportation safety issues and routinely notified and updated 
appropriate members and staff on the Board's investigations and on-
going work. In addition, in several previous positions in government, I 
have worked closely with the Congress and testified before 
Congressional committees.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The Inspector General's role is in many ways similar 
to that of an internal auditor in the private sector, (recognizing, of 
course, that the IG reports to Congress and to the Secretary, not the 
Administrator). The Inspector General's auditing and investigative 
roles are critical since they provide necessary oversight and 
accountability for the agency. I look forward to meeting with the IG to 
discuss unresolved issues in recent reports and to prepare for future 
financial management reviews. I would expect to have a constructive, 
cooperative, and candid relationship with the IG--one characterized by 
regular meetings and open communication.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. As 
Administrator of the NHTSA, I played an active role in ensuring that 
the agency's regulations complied with Congress' intentions. I worked 
to foster open communication and participation between Congress, the 
public, and affected parties. If confirmed as Administrator of the FAA, 
I will continue this practice.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views. It is important that the Congress and the 
FAA work together to ensure an on-time reauthorization of the AIR 21 
legislation. President Bush and Secretary Mineta have a considerable 
agenda of safety and congestion-reduction goals. Should I be confirmed 
as the FAA's next Administrator, I will work with the members of the 
Commerce Committee to ensure that the safety and efficiency of the U.S. 
aviation system continues to improve.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please State why. If yes, please State 
what steps you intend to take and a timeframe for their implementation. 
I believe that discretionary spending should be allocated in a manner 
that is fixed, fair and includes an open and acknowledged standard or 
criteria. Funding should reflect the statutory intent of authorized 
programs.

    Senator Rockefeller. Thank you very much. That was a good 
statement----
    Ms. Blakey. Thank you.
    Senator Rockefeller [continuing]. And confidence-builder.
    Let me just go back to, again going to the 5-minute rule, 
to the question that I originally asked. The Secretary wanted 
$100 million. $33 million plus $42 million, however you want to 
add it, does not equal $100 million. You need to be staffed up 
with air traffic controllers and inspectors. How do you see 
this problem?
    Ms. Blakey. Well, of course I still see this problem from 
the outside at this point. But I must tell you, when I read in 
the newspaper about the prospect of furloughs, it was one of 
the first things that I did ask about and talk about with both 
Secretary Mineta and others, because I wanted to be sure that 
in arriving at the FAA perhaps I was not going to be home alone 
there.
    In point of fact, I know that the discussions on this are 
proceeding. I have confidence, based upon the information that 
was explained to me, that we will be able to close this and we 
will not be looking at furloughs during this month as we move 
forward. So while the negotiations are not complete, and the 
answers are not all in, I have confidence, based upon what I 
know so far, that we are going to be able to work this out.
    Senator Rockefeller. The money does not add up.
    Ms. Blakey. I am aware of this, and I am aware that the 
discussions between the Administration, OMB, the Secretary, are 
proceeding as to what we should do at this point. I do not have 
the answer on this, and of course it is of lively concern. I am 
not confident at this point that all of these issues have been 
completely addressed to everyone's satisfaction. But I think 
they will be.
    Senator Rockefeller. OK, I appreciate that.
    The retirement question is just a stunner. We hear it 
really in so many fields now, in teaching, but for the purposes 
of this you have that many air traffic controllers retiring, 50 
percent. That is very, very dangerous. We had a long fight back 
from the 1981 situation to try and get people trained. It takes 
a long time to train and then to develop the experience of one 
of these air traffic control people to be able to operate.
    So my question to you obviously is, to the extent that you 
have had a chance to think about it--and I understand that you 
are still at NTSB--how do you look at that situation?
    Ms. Blakey. I asked about the GAO's report, because when 
that came out it certainly got everyone's attention, but I 
think there has been a growing awareness over some time that we 
were facing a period in which we were going to be very much 
looking at a work force that is retiring. As you say, in the 
year 2006 we could have as many as 5,000 controllers retire. It 
does take a number of years to train up.
    I do not think there is any answer to this except to step 
up and say that we are going to have to hire more controllers. 
We are going to have to commit intensively to training during 
this period, and there will have to be an overlap between the 
seasoned hands in our towers and people who are coming into the 
job, because we are going to have to have a constant level of 
professionalism and competence and safety. That is certainly 
what I am committed to and I believe the FAA and this 
Administration recognize that that is what is going to be 
required.
    Senator Rockefeller. It has been interesting to me, Ms. 
Blakey, that in a number of agencies--intelligence agencies, 
law enforcement, social workers--that is not an agency, but a 
profession--teaching, Peace Corps, VISTA, all kinds of things 
that are associated with the public good as well as with public 
safety, there has been a remarkably sharp increase in the 
number of applications to do that work.
    That does not necessarily mean--of course, that was also 
true with screeners--that everybody who applies is going to be 
able to get there or ought to get there. Air traffic control 
work is very stressful and very tough. I cannot think of 
anything so directly connected to public safety.
    I am wondering. I just do not know. Has there been any 
similar expression of interest, more applications, that you are 
aware of that have made themselves available for that field?
    Ms. Blakey. It is a very interesting question. I do not 
know the answer from that standpoint. I do know that we have 
seen a real upsurge of applications in various kinds of 
positions. Certainly, in the air marshals area and other areas 
having to do with security we have seen a lot of people come 
forward. So I am encouraged that that will be the case.
    I am also encouraged by the fact that we have very fine 
training programs in this country to work with people as they 
step up. Certainly the University of North Dakota's program, 
the work that goes on through the FAA's own facility in 
Oklahoma City, Emery Riddell now has a new degree program in 
air traffic control. So there is a lot that I think is going to 
be tremendously important infrastructure to support this new 
generation of controllers as they come in.
    But I hope very much that the willingness to come forward 
for public service will certainly touch people who want to go 
into this field.
    Senator Rockefeller. I hope that--my time is about to run 
out--FAA will not be afraid to market that position, because it 
combines a lot of qualities that people want, mathematics, so 
to speak, computers, console, dark room intensity, fast 
decisionmaking, teamwork, danger, enormous responsibility, and 
ought to be in and of itself very, very attractive. Even though 
it is exhausting for people who have been through it, it should 
have great appeal. It would seem to me that that is one of the 
things we could explore, how to make that appear to be and in 
fact draw people out as a very attractive kind of work.
    Ms. Blakey. I could not agree more. In fact, marketing and 
encouraging and recruiting for this is going to be a critical 
part of what we have to do.
    Senator Rockefeller. It certainly will be.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Blakey, I want to go back to this question of the 
relationship between the Transportation Security Administration 
and your agency. This morning in the paper there was a scathing 
article about the Transportation Security Administration and to 
some extent they talk about how people from your agency and the 
Transportation Security Administration are almost tripping over 
themselves.
    Let me read you a paragraph from this:

          ``Although an FAA committee of industry experts was designing 
        an employee identification system to replace the hundreds of 
        different badges used at airports around the country, the TSA 
        convened its own effort. Confused contractors made 
        presentations to both groups.''

    So on issues like baggage screening, on questions of 
employees, how are you going to put together a relationship 
with the Transportation Security Administration so we do not 
have people in two key agencies just tripping over themselves 
and making a difficult situation even more so?
    Ms. Blakey. Well, certainly I am looking at this, of 
course, from the outside now and so it is hard to make 
judgments about things until I have an opportunity to work 
closely with Admiral Loy and others at the Department of 
Transportation on this.
    I will say this. I think in the startup stages of any 
operation, regardless of what it is, there are times when the 
interface between existing organizations is tough to work out. 
There may be areas where there is genuine redundancy. There may 
be gaps. That is what I certainly am going to focus on. It was 
one reason why I raised it in my opening statement. The FAA 
certainly has a long and distinguished background and 
experience in working in the airport environment with all the 
professionals there. I think that we certainly can work to 
support the TSA and have a seamless transition between the 
security professionals, and the safety professionals and 
airport workers, who are all doing the job of maximizing safety 
and security in various ways. That is something that we are 
going to have to work very hard to do.
    Senator Wyden. I think what concerns me is we heard all of 
this essentially months ago. That is why I am trying to ask you 
about some specific issues, to get a sense of how you are going 
to approach them.
    Tell me about the baggage screening issue. Here the 
Transportation Security Administration again has a lead 
responsibility, but the Federal Aviation Administration has a 
key role to play with the airports, and the airports are going 
to be out there installing all those scanners. How do you see 
working with the airports and the Transportation Security 
Administration?
    My sense is, if this problem is not resolved in the next 
few months there is going to be absolute chaos, because we are 
going to have a busy travel season. Again, I would like to know 
how you are going to go about approaching that.
    Ms. Blakey. I think that what we have to do is to bring a 
strong management focus and intensity to these challenges. They 
are immediate, they are right before us, and we are going to 
have to bring everything we have to bear on making sure that we 
do bring the expertise, the manpower, and the kinds of systems 
that we know we can put in place to bear on these issues.
    I certainly also believe it is critical to talk with 
airport operators at all stages and at all levels--including 
small airport operators, those who are facing some of the 
biggest challenges in terms of congestion, the throughput 
issues, if you will--and bring them in, as I know is already 
beginning to be done. We can do more of this to elicit their 
help, ideas, and support, to figure out how we are going to 
make these systems work.
    I do not have any doubt that it is something that really 
does take a lot of roll-up-the-sleeves commitment, as much as 
anything else, and the work of a lot of smart people who have 
been out there in this system for a long time. But we do have 
to bring them together on this and focus, and I think that is 
exactly what we will be looking to do.
    Senator Wyden. I see that as your highest priority----
    Ms. Blakey. I agree.
    Senator Wyden [continuing]. Because this article this 
morning--this is a real wake-up call to people. It basically 
says, I am not going to read the whole thing, very little 
substantive has been done in the last 6, 7 months.
    I am willing to say I think we have made a bit more 
progress than that. But I can tell you, I do not think it has 
been anywhere near what it needs to be, and unless you can sort 
out with the Transportation Security Administration some of 
these key issues--and I am talking about in the next 60 days--I 
think there is just going to be chaos this holiday season.
    Let me turn now to the question of the agency's 
bureaucracy, and particularly these costly and time-consuming 
certification procedures that seem to be holding up getting new 
and safer aircraft and equipment out there. Now, what we hear 
from the general aviation community is that they are 
particularly concerned that these certification procedures are 
keeping technological improvements, improvements that would 
absolutely translate into areas of increased safety, that they 
are the ones that are not being made a high priority.
    Can you give us some assurance that, as it relates to 
certification processes for technological improvements on 
safety, that you will make that a top priority?
    Ms. Blakey. I am glad you raised the question. Coming from 
the National Transportation Safety Board, we have got a great 
deal of confidence in the ability of new technologies to 
address not only safety concerns, which is our primary concern, 
but also efficiency in the system.
    Nick Sabatini, who heads the certification area for the 
FAA, and I have had extensive conversations about the way we 
can move the process forward more quickly. I do not think there 
is any doubt about the fact that that is something that the FAA 
should be committed to. The FAA usually gets it right. 
Unfortunately, it does not get it right as quickly as it should 
in that area, and I think that is something we should address.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Wyden.
    Senator Burns, before I call on you I just wondered if 
Senator Snowe has any comments she wants to make.
    Senator Snowe. No, I will wait.
    Senator Rockefeller. All right.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. I have just got a 
couple of questions.
    One is of a parochial nature. We have been trying to take 
care of that dark spot around Bozeman and Butte and Helena a 
long time. I am going to ask you a couple questions, and I do 
not know where it goes or where it ends up. But somebody is 
going to run into one another up there one of these days and 
they are going to say: Golly, we should have done that 14 years 
ago.
    I am aware there has been reports that unairworthy or not 
properly tested or certified parts are being placed into 
aircraft and engines during their maintenance, repair, and 
overhaul cycles, often through so-called PMAs--that is, parts 
manufacturer's approvals. I also understand that the FAA has 
been working on a complete rewrite of its certification 
procedures for products and parts, Part 21, for the past 
decade, but it is bogged down and no final rule has been 
issued.
    It is the same thing that this Senator that was sitting 
right here said about when are they going to write the rules 
for the Grand Canyon. Nobody responds. I am not looking to add 
any new regulatory burdens on aircraft owners or operators, but 
it seems to me that the FAA needs to be doing more to ensure 
that when the work is done to repair and replace parts on 
aircraft or their engines, it does not degrade the original 
safety margins of the equipment.
    Now, I am going to ask for your commitment today that you 
will look into this issue. We would like for those rules to be 
written and I would like for them to be reported back to this 
Committee, and especially to me. I am to the end of my rope as 
far as trying to do some safety things with radar in that 
little triangle area of Butte, Helena, and Bozeman, and I am 
not getting anywhere there and he is not getting anywhere on 
the rules and regulations.
    There is no excuse for not writing the rules and putting 
them into effect, at least put them out there where they are 
open for criticism. But the FAA just will not do it. I guess 
the only way you do, you just defund them. That is a terrible 
thing to say, because we need them safety-wise. But by gosh, I 
will tell you what, the basics have to be done.
    As far as screening is concerned, I still think the 
screening thing--we are discriminated against, those of us who 
wear boots. You are not going to get through there with a pair 
of boots. You are going to have to take them off every time. It 
cost me six pair of socks. You cannot have any holes in them 
now and expect your wife to speak to you after you go through 
the screen, No. 1.
    No. 2, they have got to match. Those of us who wear boots, 
we never worried about socks matching. You just put on two 
socks and go.
    But I am really upset about this, because this is a safety 
issue. This is a safety issue. So is that a safety issue with 
the radar in my State. There is no excuse for it. There is 
absolutely no excuse for it. So I would like to have your 
commitment today that that will be high on your priority list 
once you are confirmed, and I am going to vote for your 
confirmation, but I want to see something happen down there, 
Ms. Blakey, I really do, because we have waited long enough. We 
have waited long enough. Patience is running out.
    So could I have your commitment on those?
    Ms. Blakey. Senator, you are striking at an issue that is 
very near to my heart. As you can appreciate, sitting over at 
the National Transportation Safety Board firing off letters to 
the FAA urging that safety rulemakings move forward, many of 
which have been years in the making and are still not even at 
the NPRM stage, it is something that I am very much looking 
forward to seeing how I can address that on a very practical 
and real basis.
    It will be an interesting position to be responding to 
letters that I have written, so I do think that I am going to 
find myself in a fairly ironic position from time to time.
    Senator Burns. That is true.
    Ms. Blakey. But, that said, I share completely your 
concern, and certainly for some of the big rulemakings, in the 
area of certification of parts, which absolutely require 
attention.
    Senator Burns. Well, we are talking about something--and I 
just want your commitment to that, and explain to those folks 
who wrote them rules that maybe they should seek employment 
somewhere else. It is time, and we have got to see a lot of 
grins back there. You ever try to fire one? I used to do it at 
Yellowstone County. But I tell you, it has to be done.
    Thank you very much for coming today.
    Ms. Blakey. Thank you.
    Senator Rockefeller. Thank you, Senator Burns.
    Senator Fitzgerald.
    Senator Fitzgerald. I wanted to ask a question about 
something that happened under Jane Garvey's years at the FAA. I 
think she in general did a very good job, but there was one 
issue that I disagreed with her on. That was the delay controls 
that the FAA had imposed for years by regulation. She urged 
Congress to pass a law that lifted delay controls at various 
airports where there was more demand than the airport had 
capacity for.
    O'Hare is perhaps the best example of that. O'Hare opened--
I think in 1963 it had its grand opening. It was opened a 
little bit before that, but it had its grand opening in 1963. 
By 1969 it was at full capacity, and since 1969 demand has 
always exceeded capacity at O'Hare.
    But in 1969 the FAA put in regulations, delay control 
regulations to prevent airlines from scheduling more flights at 
O'Hare than the airport had capacity to handle. Those 
regulations were in effect until 1999, and all during that 30-
year period we did not have much of a problem with delays at 
O'Hare.
    But as soon as Ms. Garvey urged Congress to lift those 
delay controls, we passed a statute that overrode and wiped out 
regulations that the FAA put into effect in 1969, delays shot 
through the roof at O'Hare and the traveling public has been 
brought to its knees at O'Hare because the airlines that 
operate there are allowed to schedule as many flights as they 
would like, regardless of the airport's capacity.
    So I guess--I know that since then the FAA has changed its 
position with respect to LaGuardia and they have reimposed 
delay controls at LaGuardia. But Chicago is suffering. We have 
to endure a system in which the airport has capacity in good 
weather for maybe 220 flights an hour. In bad weather that may 
drop down to 150 an hour. The old delay controls I think used 
to make the airlines schedule an average of about 180 flights 
an hour. Now they can schedule as many as they want, which 
often means that travelers at O'Hare have no chance of getting 
off the ground at their scheduled departure time.
    Our newspapers in Chicago, the Sun-Times and the Tribune, 
have done exposes showing that at some moments of the day--I 
think 8:45 is a very popular time to fly--the airlines will 
schedule 25 or more flights to take off at 8:45 in the morning, 
even though the airport only has capacity for three flights to 
take off at that time.
    Would you be adverse to looking at that issue and seeing if 
there is not a better way that we could manage delays by 
somehow preventing the airlines--I know they have a problem; 
they cannot sit down and work out their schedules together 
because that would raise antitrust issues. But we have got to 
have another way of solving this.
    Congestion pricing has been talked about, I believe, by 
Secretary Mineta. Do you have any thoughts on this issue, or is 
it something you just would approach with an open mind?
    Ms. Blakey. Well, it has been a thorny issue for many 
years, as we all know. The history there is such that I am not 
sure there are any easy or good solutions. Certainly I looked 
at the decision of the previous administration to lift the slot 
controls at the three slot-controlled airports. There is the 
fourth, of course, Ronald Reagan National, which is 
legislatively imposed.
    But I looked at that with interest because it is hard to 
know in a dynamic system sometimes how these things are going 
to work out. That said, I think it is a step forward that the 
FAA right now has requested comments about the way to approach 
this problem, specifically at LaGuardia, but also in terms of 
the overall national system.
    One of the first things I would like to do when I get there 
is to look at those comments in depth, to see what we know in 
terms of traffic flow, as well as the specific ideas on the 
table, and see if there are some better ways to approach 
things. The idea of reimposing any heavy hand in the system is 
not something that I would look forward to, because for the 
most part at almost all of our airports, allowing the dynamics 
of the marketplace to work does work.
    But O'Hare certainly, and the other airports that have had 
problems over the years in terms of managing the demand 
overall, may require some special procedures and we are going 
to have to look at that. But I am looking for that set of 
comments as helping, I hope, to provide some good guidance.
    Senator Fitzgerald. With respect to air traffic control, as 
we need more and more capacity in this country there will be a 
lot of people urging you to bring flights closer together, to 
allow procedures at airports such as LAHSO, Land And Hold 
Short, procedures that potentially cut the margin of safety. 
You have to balance safety with efficiency here.
    I am looking for an answer with respect to your general 
philosophy in this area. When you have to make those kind of 
decisions, how do you go about balancing safety on the one hand 
and efficiency on the other hand? If you were to err on the one 
side, which side do you think that would be?
    Ms. Blakey. There is no question about it. It is safety. I 
do not believe there is a single member of the traveling public 
that would not want us to put our greatest emphasis there, and 
make sure that we are staying within very wide margins when it 
comes to safety. I think that is absolutely critical.
    Now, one of the things that is very encouraging is that 
some of the new technologies and the new modernization programs 
that are coming on line, are going to allow us to do things in 
the system that we have not been allowed to do before. So I am 
looking to much of this in terms of modernization programs that 
will allow us to move forward in a way that I hope will not 
really pose the kinds of tough choices that we have had to date 
in some cases on that front.
    But safety has got to be the first priority and it 
certainly will be with me.
    Senator Fitzgerald. I see my red light has come on. If I 
could just one final follow-up, Mr. Chairman. I was vacationing 
in Colorado over the recess and had the opportunity to go visit 
NORAD in Colorado Springs, and in talking to the Air Force 
people there they led me to believe that every military plane 
already has global positioning satellite navigation and that 
they use it for their own purposes and that they are way ahead 
of commercial aviation in this country.
    Now, I know commercial airlines have wanted to have that 
for some time. The chairman of United when I first got sworn 
into office 4 years ago was telling me about that, and it still 
has not happened.
    Is there anything that you can do to speed the realization 
of global positioning satellite technology on commercial 
aircraft in this country and having it take over our traffic 
management from the radar-based system that we now have? Where 
is the FAA on that now, do you know?
    Ms. Blakey. Well, I think that if you look at the broad 
array of air traffic control modernization programs, you 
definitely see that there is real emphasis on movement toward 
more aircraft-based systems and certainly using global 
positioning satellite systems as a part of the way we are going 
to address navigation and safety.
    The fact is that 9-11 also, reinforced for us that it 
requires a combined ground-based and satellite-based system for 
us to have the appropriate level of schedule and safety that we 
are going to have to maintain. So I think the question in the 
years to come as we begin further implementation of these very, 
very exciting and I think very important programs that we are 
going to have the benefit of, is, what is the best signal? 
Where should the decisions be made?
    Many of them should be cockpit-based, there is no question 
about that. Many of these should be by the navigation 
information that is provided directly to the flight deck. But 
it is going to be, again, a combination of programs, the 
combined efforts of the best of these systems, that I think is 
going to give us really what we are looking for as we move 
forward here.
    Senator Fitzgerald. Well, thank you, Ms. Blakey, and I look 
forward to working with you. I hope we have a speedy 
confirmation here in the Senate and I look forward to working 
with you in the months and years to come. I am sure this 
Committee will get to know you very well. I am gratified to 
hear that even the Chairman of the Aviation Subcommittee gets 
checked when he goes through his hometown airport for schedule 
purposes in West Virginia.
    So thank you, Ms. Blakey, very much for being here.
    Ms. Blakey. Thank you.
    Senator Rockefeller. Thank you, Senator Fitzgerald.
    Senator Snowe.

               STATEMENT OF HON. OLYMPIA SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    I want to welcome you, Ms. Blakey, to the Committee. I 
think that your appointment sends a very important signal to 
this country due to your considerable background with the 
National Transportation Safety Board and Government service. I 
am impressed with your knowledge on the issues of safety, of 
making safety the first and foremost priority, and having the 
depth and breadth of understanding of those issues and the 
implications for the traveling public.
    I think there is no question, in the aftermath of September 
11th, that safety is clearly a major, major priority for this 
Congress and for this country. I know in the past, as others 
have mentioned here in the Committee, that with respect to the 
National Transportation Safety Board many of the policies and 
recommendations that have been made have not been implemented 
by the FAA. I hope that you will take a look at some of those 
issues in this position, because I do think it is critical for 
the future to really look at some of the safety recommendations 
to ensure that we have the highest standards possible in this 
country for the traveling public.
    So I welcome you, because I do think that with your skills 
and leadership it clearly can continue to put FAA at the 
forefront on those issues that are so important to this 
country.
    Let me ask you several questions. One of the areas that has 
been a problem for somebody that represents the State of Maine, 
and I know the Chairman in West Virginia, is that we are rural 
States, and the implications of the type of policies that do 
come from the FAA do have disparate implications for a small 
rural State versus more urban States and more urban 
communities.
    For example, recently the FAA issued a policy that allowed 
for the construction of the sixth runway at Logan Airport, but 
it was conditional on developing a peak pricing plan, so that 
they would increase the fees for those slots and times that 
obviously were at peak times during the course of the day. In 
the past when that policy has been tried, it clearly has had 
ramifications for small States that rely on small regional 
carriers.
    We do not have big jets any more, with rare exceptions, at 
this point. Northern Maine, when I first came to Congress, in 
1978 had 767s. Today they have one service between Boston and 
Presque Isle and that is through the Essential Air Service 
Program. So a lot has changed as a result of deregulation.
    So I am asking you to really consider the implications of 
policies that affect small and medium-sized communities versus 
urban areas, because clearly when the decision is made, for 
example, by Logan Airport and its authority, they are going to 
make a decision that is obviously going to affect those that 
carry the least number of passengers.
    Obviously, coming from a rural area, we are not going to 
have the big jets going into Logan. That was yesteryear. It is 
not today anymore. So therefore I would hope that you would 
look very carefully at that policy. This was a recent policy 
issued by the FAA. Obviously, we are very concerned in Maine 
because it will ultimately affect small regional carriers, the 
commuter aircraft that rely on going through Logan so that 
people can make their connections to other parts of the country 
or abroad.
    Would you care to comment on that?
    Ms. Blakey. I do appreciate the concern that you are 
talking about. In fact, one of the things that I have tried to 
do as a part of preparing for this hearing and thinking about 
the prospect of this job is talk to a number of airport 
managers and operators in smaller areas, because I could not 
agree with you more that the issues are different from that 
perspective and the effect of traffic at the hubs directly 
impacts the kind of service that they can provide in their 
community and the viability in some cases of that service.
    So it is a real balance that has to be achieved there. I 
would certainly echo that. I would say that, from what I know--
and I was not a party, of course, to any of the discussion 
about the Logan Airport plan--the new runway that is planned it 
is my understanding is projected to reduce delays there by 
about 90,000 hours. That is very impressive.
    If we can achieve reduction in delays by using that runway 
during bad weather circumstances, we can perhaps avoid some of 
the other kinds of approaches that really do have impact 
elsewhere. That could be a real win all the way around.
    Senator Snowe. I just think it is important for the FAA 
when they are crafting that type of policy to make sure that 
there is an understanding about the effects it has on small, 
rural areas that rely on commuter air service for any kind of 
air transportation. Clearly what would have happened in the 
past--that is why it evoked such a major reaction--was that the 
first casualty would be commuter aircraft, the smaller 
aircraft, because they carry fewer passengers.
    But if we were to use that logic, obviously, and we 
extrapolate from that, obviously either our service is going to 
be more expensive if we have it at all, and that certainly 
would be the implication of that type of policy in the final 
analysis, because obviously the peak traffic hours are 
important to those of us here in Maine as well. So I think that 
we have to design a package that does keep in mind the effects 
of a policy when it comes to small States that rely on commuter 
aircraft, because otherwise we would never win under that 
scenario and we would ultimately face the impact of that type 
of policy.
    Obviously, we are very concerned about this peak pricing 
policy, and I know that the goal is to reduce delays at Logan 
and that is an important objective because they do have major 
problems with delays. But on the other hand, I want to make 
sure that we are not excluded from this process to the extent 
that we feel the true impact of that policy.
    Ms. Blakey. Well, I have not had a chance to look at the 
plans for that study that they are planning up there for peak 
period pricing, so I do not know the specifics on it. But 
certainly with respect to your broad point, from the standpoint 
of the FAA we are going to be very attuned to providing 
adequate service and doing everything we can to ensure that 
service is provided to smaller communities.
    Senator Snowe. I appreciate that.
    On another issue, back in December 2000 the FAA issued an 
order regarding distribution of takeoff and landing slots at 
LaGuardia and a lottery system was held to allocate the limited 
number of slots available to air carriers. One carrier, for 
example, from our State, again a small carrier, lost most of 
their slots under this lottery system, in fact as a result 
dropped the service from Portland, Maine, to LaGuardia.
    Obviously, I understand that there is a significant problem 
with congestion at LaGuardia. But again, these type of actions 
ultimately reverberate on the smaller communities in the final 
analysis, and the underserved communities continue to be 
further underserved because of these policies. So I would hope 
that again when you are looking at implementing these different 
approaches that you would look at this, at the impact it would 
have on smaller communities, because the lottery system did 
have that effect and so ultimately the carrier did cancel its 
service because they lost most of their slots.
    What in your view could be done to relieve congestion, at 
least in terms of what Congress could do to relieve congestion 
at various airports? Have you given that any thought at this 
point in order to ensure that we can take various approaches, 
what Congress could do, in addition to airport construction? I 
know that is one of the issues that we have provided support 
for in this Committee.
    Ms. Blakey. Well, fundamentally increasing infrastructure 
is one of the answers. In fact, it is a key answer, as I think 
we all know, because it is hard to get there without increase 
at certain airports really in terms of the pavement that is 
available, and the facilities that we can provide. So we have 
to recognize that, and I know there are hard choices involved.
    But the lengthy period of time that is involved in runway 
development and in other infrastructure development is 
certainly an area in which I would like to do everything we can 
to make sure the process is efficient so that we can address 
those needs. In addition, I think the critical question, of 
course, is whether we have the right tools available from the 
standpoint of air traffic control and from the standpoint of 
the system to manage things well.
    It was interesting to me to learn that over three-quarters 
of the delays that are caused by problems with the 
infrastructure, down time of various sorts, issues in terms of 
the tools that ATC has available, only occur at a little over 
one-quarter of the airports. Yet that can cause huge 
bottlenecks for the whole system and be a real problem.
    So bringing on line newer technologies and modernizing in 
those areas where it is most critical I think can have a real 
effect. Certainly as we move forward, I am certainly very open 
to looking at the way we are approaching air traffic control 
broadly to see if there are other ways to achieve operational 
changes that can help.
    I do not have the answers to this, but there are a variety 
of ways that we can look at this in addition to looking for the 
long-term bringing on line of much more modern programs and 
therefore the ability to have greater throughput.
    Senator Snowe. Well, I think it would be important at some 
point when you assume this position to get your input and 
providing it to this Committee and to the Congress about what 
you view the priorities are in terms of what we could do now on 
non-air traffic control initiatives, certainly where the 
Congress is involved, to ensure that we can do everything we 
can put in place to avoid delays in the future.
    We have seen a sharp decrease in delays compared to where 
we were in 1999 and 2000, obviously, with the effects of 
September 11th and the economic slowdown. But obviously that is 
going to change. There has been a projection that there will be 
a billion passengers a year passing through airports by the 
year 2010, and the question is will we have the type of 
technology and infrastructure in place and what should Congress 
be doing if we are not doing it already.
    So your assessment I think on that would be very important 
as you move ahead in your responsibilities in making sure that 
we are fully informed.
    Ms. Blakey. Well, I appreciate that, and I must tell you 
that I think this Committee has been very supportive and very 
helpful on that front. As I have learned about this, I am quite 
struck by that.
    I would recommend to you one thing. Administrator Garvey in 
her last hearing in the House did recommend some streamlining 
in terms of management changes for the FAA which I think would 
help us recruit for that chief operating officer position. It 
is a critical position in terms of air traffic control. So I 
would recommend those changes that she laid out, because I do 
think if we could streamline and realign that slightly it would 
make it much easier to get the right people and therefore the 
strongest management team to address these things.
    Senator Snowe. Well, thank you.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator Snowe.
    Let me just ask a couple final questions. One of them is 
actually for your speeding up of the process of confirmation, 
although the question is not one that you will welcome. This 
has to do with the AFSCME contract, and that is important. 
There are some holds on your nomination, as you know, and we do 
not want that and it is dangerous for the American people and 
it is dangerous for everybody who has anything to do with the 
airline industry for you not to be in that position.
    Now, the contract was negotiated, it was agreed to, it was 
signed off by AFSCME, it was signed off by the Federal Aviation 
Administration, it was ratified by the union members, and then 
it was stopped cold in the Office of Management and Budget. 
This contract has been lingering since February of 2001. That 
is a long time. It is a festering problem. It involves 2,000 
people and it is not going to go away unless something is done 
and it potentially could affect your confirmation. I do not 
know that, but you know that there are holds and it is over 
this issue.
    You can say that is playing hardball. I am not one of the 
holders, but you can say that is playing hardball, or you can 
say this is getting at a basic issue because we are talking 
about the morale and how people are treated and this and that 
and the other thing--contract agreed to, you-them, or your 
predecessor-them, stopped at OMB, where so many things in all 
administrations die, because they have special responsibilities 
and they are not always the warmest of hearts that reside over 
there.
    In any event, if you are confirmed what are you going to do 
about this?
    Ms. Blakey. Well, what I know about this, of course, is 
broad information looked at from outside, because I certainly 
was not a part of that process, or aware of the issue until 
fairly recently. I have had a broad briefing on labor issues 
from the FAA. But again, I have never seen the negotiated 
document. I have not really spoken to any of the direct parties 
involved. So I cannot shed a lot of light on the specifics.
    I can say this. I have a tremendous amount of confidence 
and belief in the collective bargaining process. It is really 
what has driven our Nation's economy in so many ways. It has 
been a successful approach. It is certainly something that I 
would not only approach with good faith, I would approach it 
with a lot of energy, because I do not think a situation like 
the one you described is healthy. It is not healthy for not 
only the morale of those affected, the individual employees, 
but the good of the workforce at large and the kind of spirit 
of teamwork and focus that we are going to need, as we have 
discussed many of the challenges today.
    So I think this does have to be resolved. I would look 
forward to working very hard to do so, to sit down at the 
bargaining table again and to discuss what is really at issue. 
As I say, I have no way of speaking to the specifics.
    I would also point this out, that the matter is before an 
administrative law judge right now, I am told, and a decision 
is expected from that from a judicial standpoint any day. So 
that may resolve the issue in and of itself. I have no idea, of 
course, what the view will be from the bench. But it is at that 
stage of the process, and so it may be that this is something 
that one should let that process go forward because there is 
presumably an impartial eye looking at the views of both sides.
    So with that in mind, I think that I would certainly just 
tell you I would approach this with good faith if and when I am 
in the job.
    Senator Rockefeller. That is a good answer and I appreciate 
that.
    Let me, from my point of view--Senator Snowe, do you have 
more questions?
    Senator Snowe. No.
    Senator Rockefeller. You do not. From my point of view--
before I came to this Committee hearing, I said to another 
Senator in our caucus that we were going to have this hearing. 
I do know that there are a lot of hearings going on today. The 
Senator made a very interesting comment which resonated with 
me, because I have been watching government for quite a long 
time. I was a Governor for 8 years and did not have quite as 
many people working for me as you will at 50,000. A small 
State, but still an awful lot of people.
    It always interested me and it has interested me a lot more 
since I have gotten here, in a small State a Governor, for 
example, to wit you, can issue an order or can do a directive 
or pursue something and there is always a fairly close 
relationship between the State Government and the people who 
work for it and a Governor. It is a more intimate relationship. 
You get up here, everything changes.
    I have been stunned in the post-9/11 context by what I call 
turf consciousness. We are not immune from that ourselves, I 
might say, in Congress. There were those on this Committee that 
opposed the idea of aviation security going to homeland 
security. I did not. I thought it was good. If it was a 
question of turf, then I guess I should have been against it. I 
am not. I think it is a good idea, because I think you have so 
much to do, you will be involved with it anyway. You have so 
much to do and we have got to keep people flying.
    But the whole concept of what you call the culture of 
bureaucracy, the culture of non-change, the culture of, oh, 
Administrator Blakey is going to come and then she is going to 
go. Yes, she will be here for 5 years, that is unusual, but 
then she will go, then there will be somebody else. This is 
like Senators who have been here for a long time say: Oh, I 
have been through five presidents, I have been through seven 
presidents, whatever it is.
    There develops this kind of a culture of ``we are who we 
are and people may tell us what to do, but we do not listen 
because we do what we do. That is what we are trained to do. 
They say the world has changed, but our equipment has not 
changed, our ethos has not changed, our self-esteem has not 
changed; we show up to work, we do the same thing.''
    It is an enormous problem in government. I am on the 
Intelligence Committee; I watch in there the most intimate and 
immediate matters of national security, the reluctance of 
people in various organizations that work on that to change the 
way they do business, to change their patterns of behavior, 
basically culture.
    Now, I thought Jane Garvey made a good start on that. She 
did a lot of traveling around, met with people who worked for 
FAA. That is a big deal, people do not show up, and when the 
Administrator shows up that really means something. I think 
that things improved.
    On the other hand, FAA is changing so fast, needs to change 
so fast, its various functions need to be modernized so 
quickly. We, for the first time, we were very lax in Congress, 
finally passed a reauthorization bill. Even that was a quirk, 
and it got things going. The unplugging of hubs is tremendously 
important. Senator Fitzgerald was talking about O'Hare. He and 
I have different views as to what ought to happen about O'Hare.
    But one of the things I think nobody can doubt is that 
O'Hare may not be a problem for delays in O'Hare itself, but it 
sure is a problem in West Virginia and every other place that 
any plane out of O'Hare flies to or from. So that O'Hare 
affects all these things.
    Now, that does not mean that you can take air traffic 
control and ask them to do something differently until you have 
the technology to allow them to either separate distances, 
altitude in the air, or whatever distances between planes, or 
find the technology to allow planes to land or take off more 
quickly, and that they are all in place and that they are all 
compatible and they reflect themselves in the cockpit. It is 
easy to talk about it and very hard and expensive to do.
    But the general question I have, this person said, and I 
will just be very blunt about it, that ``those FAA people, they 
are going to eat her alive.'' Now, I want you to respond to 
that and tell me why they are not going to eat you alive.
    Ms. Blakey. Well, I think in part because, as they say, ``I 
are them.'' You have to remember that I come out of the career 
bureaucracy, for one thing, so I have been there. I do 
understand what you are talking about from a cultural 
standpoint. I have a healthy respect for the people who day in 
and day out have to deliver the goods in all the specific ways 
that way down in the FAA have to happen.
    So there is certainly, as I say, both a respect for the 
functionality as well as a respect for what I am up against in 
terms of trying to make change, because people do not like to 
change. Organizations do not like to change. It is very 
fundamental.
    All right, what does that mean and how do you do it? I am 
not going to say I have all the answers here today by a long 
shot. But to borrow an analogy from a different mode of 
transportation, you have got to get off the bridge. It is no 
good to be up there with your officers, everybody in braid and 
turning the wheel and pretending that the ship is going in the 
direction you want and everything way down is functioning, 
because half the time the wheel is not connected to anything 
and folks down there are just doing it all on their own, if you 
take that approach.
    You do have to get into the organization, meet with people 
in their offices, go out into the field, sit and talk with 
people about what is going on and what is not. But most 
importantly, you have to take the navigational map, if you 
will, from the bridge out with everyone and say, OK, here are 
the goals where we are going here, here is what we want to 
accomplish here. Now, I am expecting you to tell me what it is 
going to take to empower you to get it done, but there are 
performance measures here, we are expecting things to happen. 
And we want to get real specific about that. So let us talk 
about the schedule, let us talk about the metrics in terms of 
the way we want to approach things here, what the benchmarks 
are and how are we going to get there.
    Then you have to continue, I believe, day in and day out, 
week in and week out, with that kind of intensity at all levels 
of the organization, because if you are doing it all from the 
front office it just simply does not work and people do not 
respect that, and you will never know really what is happening 
fundamentally.
    So that is the way culturally I look at it, and I will 
certainly do everything I can to make sure that the 
organization is going to be one that is going to be nimble, be 
aggressive in meeting its deadlines, and be very proud of the 
fact that it is a real change agent. I think that can happen.
    Senator Rockefeller. Good answer. It is a good answer, and 
it is an important answer and you hit it immediately and you 
hit it hard. The fact that you have been in the bureaucracy, so 
to speak, in fact does mean a great deal.
    I am going to adjourn this now, but this is an 
extraordinarily important mission. I think the American people 
have no sense of what it is that an FAA Administrator goes 
through, what they face, the pressures on them, that everything 
is real-time, instant, and funding is always short. We are now 
in a Federal budget deficit situation. That does not bode well. 
You have the advantage that aviation is one of the most high 
profile issues on the national agenda right now and very much, 
obviously, in terms of security.
    Your interest is in safety, your interest is in getting 
people back into airplanes, your interest is in having planes 
take off on time, land on time, have them do it faster, but at 
the same time very safely. So it is an enormous position which 
you are undertaking.
    I want you to have the position. I think you are going to 
get the position. I hope it is real soon, and I thank you very 
much for appearing.
    Ms. Blakey. Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you.
    This hearing is adjourned.
    [Whereupon, at 4:07 p.m., the Committee was adjourned.]

                            A P P E N D I X

  Responses to Written Questions Submitted by Hon. Ernest F. Hollings 
                            to Marion Blakey

    Question 1. General Management: The FAA for years was often 
criticized as reactive, not proactive in making safety advances. Things 
have changed over the last several years. What are your plans to build 
upon those changes to reduce the risk of accidents?
    Answer. As Chairman of the National Transportation Safety Board, I 
am keenly aware of the need to be proactive on issues of safety. In my 
current job, safety is my highest priority and should I be confirmed as 
FAA Administrator, my commitment to safety will remain paramount. I 
think one of the changes we have seen over the past few years is FAA's 
willingness to work with the industry to identify and meet challenges. 
The Operational Evolution Plan provides all parties with an 
understanding of how agency goals are to be met, allowing all 
stakeholders to plan accordingly. In addition, some of the programs 
currently in place are intended to obtain information on areas such as 
human factors, which plays a role in virtually all accidents. Changing 
the focus from learning things after an accident to understanding how 
to improve safety before an accident is critical to a further reduction 
in the accident rate. The FAA is currently on track to meet its goal of 
reducing accidents by 80% by 2007. I am committed to focusing all my 
experience and expertise on helping them achieve that goal.
    Question 2. Boeing Aircraft: Last week the FAA ordered all 
commercial airlines to inspect more than 1,400 planes built by Boeing 
to check on the fuel pump wiring. This is an example where the FAA is 
being more proactive. How quickly are these checks being done? Have you 
gotten any preliminary results from the checks that have been done? Do 
you consider this an unsafe condition for flying?
    Answer. I'm advised by the FAA's top safety officials that the 
FAA's Emergency Airworthiness Directive (AD) that was issued on Friday, 
September 6, and was effective upon receipt, applied to operators of 
Boeing Next Generation Model 737 airplanes (Series -600, -700, -700C, -
800 and -900), Boeing Model 747 airplanes, and Boeing Model 757 
airplanes. The AD addresses a population of 1250 fuel pumps, 
manufactured by Hydro-Aire, a supplier to the Boeing Commercial 
Airplane Group. There have been 3 reported cases of these pumps 
malfunctioning due to an assembly problem of the internal pump wiring. 
This defect is thought to exist in only 2.5% of the pumps, or 
approximately 30 pumps. A potentially unsafe condition exists if the 
mis-wired fuel pump produces a spark, which could ignite flammable 
vapors in a fuel tank. The actions taken by this AD will prevent such 
an occurrence.
    The current AD directs operators of the affected airplane models to 
maintain a certain level of fuel in the tank necessary to cover the 
fuel pump. This will ensure the continued safe operation of the 
affected aircraft until an inspection can be developed to identify and 
remove the mis-assembled or bad pumps.
    The FAA is working with Boeing to develop an effective means to 
inspect the fleet for the presence of a mis-assembled pump. When an 
effective means of inspection is approved by the FAA, another AD will 
be issued to mandate its accomplishment. No inspections have been 
conducted to date.
    Question 3. Cockpit Doors: Cockpit doors are required to be 
strengthened to withstand bullets or grenade blast by April 9, 2003. 
Recent news reports have indicated that the FAA is concerned about 
meeting this deadline. What is the current status of this effort? What 
steps will you be taking to insure that this deadline is met? The 
cockpit is clearly most vulnerable while the doors are open Do you plan 
on making any additional changes to ensure the integrity of the 
cockpit?
    Answer. I understand that the FAA is holding weekly meetings with 
industry to identify and resolve any issues that would delay 
certification and installation of the new hardened doors. In addition, 
the agency is receiving weekly status reports from manufacturers and 
airlines which will allow the FAA to identify and address any issue 
that might jeopardize the deadline being met. When the original rule 
was issued requiring stronger locks on the doors, the airlines were 
also required to ensure that the door remained locked during the 
operation of the flight, that each carrier establish procedures for 
identifying those individuals who need access to the flight deck, and 
that each carrier establish procedures for pilots to follow when they 
needed to leave the flight deck during the operation of the flight.
    Question 4. Pilot Licenses: The FAA continues to have authority to 
issue pilot licenses (certificates to airmen). How will FAA use new 
technologies, like biometrics for new licenses, and how quickly will 
the FAA change the current paper license system?
    Answer. I'm advised that the FAA has developed a proposed 
rulemaking for immediate implementation that would require airmen to 
carry photo identification along with their airmen certificate. The 
photo identification would be required to be in the airmen's possession 
in order to exercise the privileges of their certificate. The 
rulemaking was proposed by the Aircraft Owners & Pilots Association as 
a way to quickly get in place a mechanism to provide photo 
identification along with the FAA's airmen's certificate.
    Before considering a photo and/or biometrics on the FAA certificate 
itself, the FAA will want to see what type of standard identification 
criteria are established by either the Transportation Security 
Administration or the proposed Department of Homeland Security.
    Question 5. AIP: It is not clear how expenditures for the Airport 
Improvement Program have been impacted by 9-11, and if those changes 
will have a severe impact on the FAA. What impacts on spending 
priorities has 9-11 had on the AIP program?
    Answer. I'm told that the FAA anticipates that Airport Improvement 
Program (AIP) expenditures for security related projects this year 
(other than terminal modifications to accommodate passenger and baggage 
screening) will be approximately $400 million. This represents four 
times the highest amount devoted to security projects in any previous 
year. The FAA is continuing to work with the Transportation Security 
Administration to identify permanent solutions for EDS installation.
    To meet the increased security needs in FY 2002, the FAA did 
curtail AIP funding of new projects. However, the impact of this action 
in FY 2002 is likely to be modest because many airports delayed new 
starts themselves in response to the uncertainties in the 12 months 
after September 11.
    Question 6. Privatization: The FAA, in an opinion submitted to the 
District Court in Ohio, included a statement that contracting out air 
traffic control tower functions for ``contract towers''--a program 
limited to a specific category of small airport--is not an inherently 
governmental function. While the opinion of the FAA is limited to these 
types of towers, I want to make sure that the reasoning does not, and 
is not used to further erode the inherently governmental nature of the 
FAA's mission to provide Air Traffic Services. Can you give me your 
assurance that the FAA's opinion with respect to contract towers will 
not be expanded upon?
    Answer. I've been advised that FAA has no plans at this time to 
convert any additional air traffic towers to the federal contract tower 
program.
    Question 7. Fees/Demand Management: The FAA has said airports do 
not have the authority to impose or collect ``demand management''-type 
pricing schemes (e.g. peak period pricing, which could freeze out small 
carriers) under existing law. Can you assure me that while you have 
solicited comments with respect to LaGuardia, you will not allow such 
actions?
    Answer. I will ensure FAA upholds existing statutory and AIP grant 
assurance restrictions on the imposition of demand management pricing 
at airports and work with airports to assure that any such fees, if 
permissible, would take into account the impact that they would have on 
new entrant carriers, service to small communities, and international 
aviation.
    If upon review of public comments regarding the potential use of 
demand management pricing at LaGuardia, there is an interest in using 
pricing to control congestion and delay at LaGuardia, and, if the 
Department's studies and analyses demonstrate its feasibility and 
effectiveness, the FAA would, of course, work with Congress on any 
needed changes in Federal laws.

                                 ______
                                 
     Responses to Written Questions Submitted by Hon. Max Cleland 
                            to Marion Blakey

    Question 1. Shortage of Controllers: As you know, there is a 
shortage of air traffic controllers which promises to approach critical 
mass in a couple of years unless we address this very important issue. 
In fact, the GAO recently issued a report stating that the controller 
system will be reaching a point of stress if more hiring and training 
are not done. This shortage negatively impacts traffic into and our of 
Hartsfield, which is still the world's busiest airport--and delays at 
Hartsfield have a ripple effect through out the system.
    I have introduced S. 871 as a stop-gap measure to alleviate the 
problem. My bill would change the compensation for air traffic 
controllers by computing their annuities in much the same way annuities 
are computed for law enforcement officers and firefighters retiring 
under the Civil Service Retirement System. Under my bill, older 
controllers would be encouraged to stay on the job longer because of 
the increased annuity payments they would receive. Retaining these 
controllers would provide the FAA with more time to hire and train 
future controllers. S. 871 has bipartisan support.
    Ms. Blakey, I would appreciate hearing your comments on S. 871. 
Would you support this legislation?
    Answer. I am aware of the anticipated shortage of qualified air 
traffic controllers and recognize that this is a very important issue. 
I commend you on your efforts to address this issue. I understand the 
FAA is looking at a range of options to address this issue. The FAA is 
faced with the challenge of finding a way to ensure that air traffic 
continues to be safe and efficient within the resource limitations the 
government always seem to face. I look forward to working with you, 
should I be confirmed, to address this issue and to ensure that the air 
traffic needs of this nation continue to be met.
    Question 2. Savannah/Hilton Head International Airport: The 
Savannah/Hilton Head International Airport has been approved for some 
time to have its tower staffed 24 hours, seven days a week, but no 
funding has been allocated to hire the additional controllers. As it is 
now, after midnight, commercial aircraft are landing at Savannah 
without tower assistance. In addition, the Savannah Tower handles air 
traffic at certain altitudes for Hunter Army Airfield and the Hilton 
Head general aviation airport, so those airports are also affected.
    When can we expect the new personnel to be assigned to operate the 
Savannah Tower 24-7?
    Answer. I understand that a 24-hour operation at the Savannah 
International Airport was requested but has not been approved. I am 
told that the data used to support the request is old and a new study 
must be done to determine if a 24-hour operation is needed. The 
facility has an agreement for controllers that allows for air traffic 
control specialists (ATCS) to extend their shifts as needed, and 
overtime has been allocated. In addition, Jacksonville Air Route 
Traffic Control Center handles the instrument flight rules traffic when 
the facility is not in operation. I believe there will be an increase 
of two controllers in Savannah in the Spring 2003. The FAA regions have 
each obtained their allocation of controllers for the first quarter of 
next fiscal year. I am told that negotiations for the placement of 
these controllers is ongoing with the controllers' union. I understand 
your concern that this facility should be sufficiently staffed and, 
should I be confirmed, I would be happy to work with you to ensure that 
is the case.
    Question 3. Runway Visual Range for Savannah Airport: I would 
appreciate your checking on when the Savannah airport will get full 
installation of its RVR (Runway Visual Range) navigational devices. The 
navigational devices have been approved by the FAA, but they have not 
yet been fully installed. The RVRs would significantly increase 
Savannah's ability to handle aircraft in bad weather Can you give me an 
idea of when they might be installed?
    Answer. I have checked with FAA's Airways Facilities organization 
and received the following information. The equipment will be delivered 
to the airport at the end of November. Depending on funding for the 
project in 2003, the FAA will begin engineering design work and 
establish the construction contracting process. These activities will 
be completed in June. The installation of the RVR will begin in July 
2003 and end in August 2003. It will be commissioned in September 2003.
    Question 4. Executive Order: President Bush signed an Executive 
Order on June 4th that would allow oversight over the Air Traffic 
control system to be contracted out. Where do you stand on privatizing 
ATC oversight and the Air traffic Control system in general?
    Answer. My understanding is that the Executive Order was amended to 
make clear that the Executive Order did not inadvertently preclude the 
continuation of FAA's successful contract tower program. FAA has no 
plans at this time to convert any additional air traffic towers to the 
federal contract tower program.

                                 ______
                                 
      Response to Written Question Submitted by Hon. John Edwards 
                            to Marion Blakey

    Question 1. Ms. Blakey, as you know, a great many people are 
preparing to celebrate the 100th anniversary of the Wright Brothers 
historic first flight in my state. This will be a year-long celebration 
involving thousands of aircraft of all shapes and sizes. I have been 
working for the last few years to secure funding for the various 
activities that are expected to take place in and around Kitty Hawk to 
make sure that the many visitors who will be in the area will have a 
positive experience. As you can imagine, we will be needing a great 
deal of assistance and support from the FAA--we will need a temporary 
ASR-9 radar and additional tower facilities at four identified airports 
to ensure safety of the high volume of commercial, civilian and 
military aircraft throughout 2003.
    I know your staff is aware of these needs and is working to provide 
us with a cost estimate. What I'd like from you is your personal 
commitment to helping us secure this equipment.
    Answer. Let me assure you that you have my personal commitment to 
assist North Carolina with preparations for next year's 100th 
anniversary of the Wright Brothers first flight, which is an exciting 
and important milestone for the aviation community. As you stated, the 
FAA has been working with North Carolina's Department of Transportation 
to develop cost estimates for establishing and staffing air traffic 
facilities at various locations around the state. If confirmed as FAA 
Administrator, I will ensure that the FAA continues to work closely 
with state officials to finalize all requirements, and establish a 
definitive work plan to provide the necessary support for the 
centennial events within available resources.

     Response to Written Question Submitted by Hon. John F. Kerry 
                            to Marion Blakey

    Question 1. Ms. Blakey, as you are aware, the FAA has exclusive 
jurisdiction over the occupational health and safety of flight 
attendants. Two years ago the FAA and OSHA signed a Memorandum of 
Understanding to move forward on implementing OSHA standards for flight 
attendants. In the interim the FAA has only announced a plan that calls 
for voluntary safety guidelines to be implemented by the airlines. As 
the FAA Administrator would you be willing to relinquish exclusive 
jurisdiction over occupational health so that all flight attendants can 
be protected whether or not a carrier voluntarily decides to implement 
safety standards?
    Answer. I understand FAA has worked closely on this issue with the 
Assistant Secretary for Occupational Safety and Health at the 
Department of Labor. The Memorandum of Understanding sets forth a 
process by which the FAA and OSHA will determine whether OSHA 
requirements can be applied to the working conditions of employees on 
aircraft in operation without compromising aviation safety. A 
commercial aircraft is a unique workplace and that uniqueness must be 
factored into any application of occupational health requirements. FAA 
cannot abdicate its role in ensuring that occupational health 
requirements do not have unacceptable or unintended safety or 
operational impacts. Should I be confirmed, I will work with my 
counterpart at OSHA and with relevant stakeholders to establish a 
future course for this regulatory area that ensures a high quality 
working environment aboard commercial aircraft.
                                 ______
                                 

     Responses to Written Questions Submitted by Hon. John McCain 
                            to Marion Blakey

                 PERCEIVED LACK OF AVIATION EXPERIENCE

    Question 1. There are some people in the aviation community who 
believe that your apparent lack of aviation experience could be a 
detriment to your being the FAA Administrator. It is important to show 
clearly to the various segments of the aviation community that you 
understand their needs and how they operate. What do you plan to do to 
reach out to the aviation community and assure them that you understand 
their needs and how they operate?
    Answer. Both the FAA and the aviation industry benefit from strong 
leadership and good management. Over the past three decades, I have 
developed my leadership skills and executive management experience in 
both the private and public sectors. My experience as Chairman of the 
National Transportation Safety Board (NTSB), Administrator of the 
National Highway Traffic Safety Administration (NHTSA), Assistant 
Secretary for Public Affairs at the Department of Transportation (DOT) 
and owner of a public affairs firm has prepared me to deal with the 
challenge of managing the FAA. I am not afraid to make decisions, and I 
am not afraid to work hard to implement my decisions. Providing the 
agency with clear direction and working with both agency employees and 
industry leaders to communicate that direction is important in ensuring 
that a strong system of consensus building between the public and 
private sectors is achieved. I also intend to meet the agency's current 
and future challenges by building strong partnerships with the aviation 
community--including the flying public, the manufacturers, the 
airlines, the general aviation community, and transportation labor 
leaders. I have already conducted outreach sessions with various parts 
of the aviation community, and would make such contacts a routine part 
of my work at FAA.
    Question 2. You currently oversee an agency with 450 employees and 
a $68 million budget. The FAA is at least 100 times larger. Are you 
prepared for overseeing an operation of this scope and magnitude?
    Answer. Certainly, the management issues facing the FAA 
Administrator are more challenging than those facing the Chairman of 
the NTSB in terms of both scope and size. However, strong leadership 
and a good management team are essential to running any organization 
successfully, regardless of size. No single individual will have all 
the skills and experience required to do a job of this complexity, and 
I am looking forward to having a senior management team of extensive 
experience in transportation and aviation. That said, the leader of any 
organization must be able to make necessary decisions, understand the 
ramifications of those decisions especially in an agency such as the 
FAA, with significant safety responsibilities, where such decisions 
often have extraordinary implications, and ensure that those decisions 
are effectively implemented.

                       SIGNIFICANT SAFETY ISSUES

    Question 3. In the past, the FAA has been criticized for being too 
close to the aviation industry in that safety recommendations by the 
NTSB are not followed or are watered down if the industry complains 
about the burden they would impose. As the current chair of the NTSB, 
you have something of a unique perspective on this issue. How would you 
handle NTSB safety recommendations, such as those on the Ten Most 
Wanted List, as the head of the FAA?
    Question 4. As Chairwoman of the NTSB, you have been in the unique 
position to both understand and help develop the serious, well-
researched safety recommendations NTSB is charged with issuing. You 
have also been in a position to see firsthand that many of those 
recommendations are not quickly followed through with at the FAA. What 
are the top five recommendations that you believe the FAA should have 
finalized by now and how do you plan to address this problem when you 
assume leadership of the FAA?
    Answers 3 and 4. As Chairman of the NTSB, I initiated a program to 
work with all DOT modal administrators to aggressively address open 
safety recommendations. As FAA Administrator, I plan to continue this 
effort. Indeed, the task is formidable at FAA--there are over 300 open 
recommendations. Historically, the FAA receives about 50 percent of all 
NTSB safety recommendations, approximately 4,000 since the inception of 
the program. Overall, the FAA has maintained an acceptable response 
rate of over 80 percent of NTSB recommendations. I intend to give 
particular emphasis to the FAA efforts in response to recommendations 
related to runway safety, aircraft structural icing, fuel tank safety, 
flight data recorders, and human factors such as fatigue, with a view 
to proceeding more aggressively in these critical safety areas.
    Question 5. Is it your perception that following September 11 and 
the heightened attention devoted to security, that safety issues have 
lost some focus, or more importantly funding? In other words, is safety 
taking a backseat to security?
    Answer. I believe safety can never take a back seat at the FAA. It 
is the FAA's primary mission. Both before and after September 11, the 
FAA has maintained robust programs to set safety standards and oversee 
compliance with these standards. These programs continue to help ensure 
the outstanding safety record the U.S. aviation system enjoys. I can 
assure you that I intend to increase the focus on safety, while 
allowing the system to operate securely, efficiently, and effectively.
    Question 6. The Air Transportation Oversight System (ATOS) was 
initiated at 10 major air carriers more than three years ago to use 
data to identify trends and spot problems in aircraft maintenance 
before they result in incidents or accidents. The new system is not 
reaching its full potential at the original 10 carriers and has not 
been expanded to the remaining passenger air carriers. How would you 
move this program forward?
    Answer. I have been briefed on ATOS, which is a proactive approach 
to aviation safety that goes beyond just ensuring compliance with 
regulations. The goal is to foster a higher level of safety of air 
carriers by using a systematic, data-driven process to identify safety 
trends and prevent accidents. ATOS ensures that air carriers build 
safety into their operating systems, and identify and correct 
deficiencies before they cause problems with safety and service to the 
public. I know that the FAA is using feedback from inspectors and air 
carriers to improve the ATOS process with improved job aids, 
automation, and training.
    Before expanding the program, I would evaluate its maturity and 
effectiveness and ensure appropriate training can be provided to the 
inspectors. I would also expect to incorporate further inspector and 
air carrier feedback as the program matures.
    Question 7. Last year there were about 380 runway incursions and 
1,200 operational errors, both indicators of serious safety risk. What 
actions would you expect the FAA to take to reduce the occurrence of 
these incidents?
    Answer. As Chairman of the NTSB, addressing runway incursions was a 
top priority of mine--one which I intend to focus on as Administrator 
of the FAA. Based upon the numbers reported by FAA comparing the number 
of runway incursions and operational errors in 2001 and 2002, I believe 
that progress has been made towards reducing runway incursions. The FAA 
appears to be heading in the right direction with the creation of the 
Runway Safety Blueprint 2002-2004, which includes 39 action items 
targeted to reduce risk on the runway.
    Additionally, I have been told that in the past year, the Office of 
Air Traffic implemented a number of initiatives designed to increase 
management focus on and reduce the occurrence of operational errors. 
The Office of Air Traffic has also entered into a collaborative 
agreement with the National Air Traffic Controllers Association to 
jointly work on the reduction of operational errors. As of September 
12, 2002, 1001 operational errors have been reported in FY2002. This 
represents a 13% decrease (-147 errors) from the same period of FY2001. 
As Administrator, I would work to continue this trend by pursuing 
development of air traffic specific awareness training as well as 
continued research into the human factors associated with errors to 
better identify causal factors and develop appropriate training.
    Question 8. In October 2000, the Inspector General expressed 
concern that the FAA's selection process for the expanded Controller-
in-Charge (CIC) Program was not ensuring that only the most qualified 
controllers are selected. The FAA's own internal evaluation of the 
expanded CIC Program found that 70 percent of the facilities were 
designating 100 percent of the air traffic controllers as CIC. Based on 
your experience at NTSB, do you have concerns about the CIC program? 
Would you consider taking another look at the practice of designating 
100 percent of the air traffic controllers at a facility as 
Controllers-In-Charge, given the high numbers of runway incursions and 
operational errors?
    Answer. FAA officials have advised me that, subsequent to the 
expression of concern by the Inspector General regarding the FAA's 
selection process for the expanded controller-in-charge (CIC) program, 
agency officials met with Mr. Mead and members of his staff to address 
this and other related issues.
    The CIC program is part of the agency's overall watch supervision 
effort and, if confirmed as FAA Administrator, I would ensure that the 
program continues to be examined any time we review the safety aspect 
of air traffic operations. In the course of such reviews, if it is 
determined there is a correlation between CIC percentages and 
operational errors or runway incursions, I would advocate that we take 
another look at FAA policies and practices of designating CIC 
percentages for facilities. I am told, at this time, the FAA has not 
seen such a correlation and the agency is confident that its air 
traffic managers are appropriately utilizing the CIC program. If 
confirmed, I would certainly continue to assess this myself on an 
ongoing basis as a part of my safety oversight responsibilities.
    Question 9. The General Accounting Office recently released a 
report examining the future attrition of controllers. GAO concluded 
that by the end of fiscal year 2006, about 5,000 controllers will leave 
the agency. Many of these controllers hold positions as supervisors or 
work in the FAA's busiest facilities. Given the projected attrition 
rates in the controller workforce, what measures would you take to 
ensure that enough certified controllers and supervisors will be 
available to meet the agency's projected staffing requirements?
    Answer. The FAA's data show that the retirement eligibility rate 
for terminal and en route controllers will dramatically increase 
beginning in fiscal years (FY) 2006 and 2007. If confirmed, I expect to 
work with the Department of Transportation and the Office of Management 
and Budget to address the impending increase in controllers who are 
eligible to retire in the FY 2004 budget submission. I will personally 
review the FAA FY2004 budget recommendations, which are now under 
review within the Administration, to assure appropriate resources to 
hire controllers and supervisors. I believe this type of advance 
planning is a prudent means of preparing for the possibility of future 
retirements.
    Question 10. The Flight Operational Quality Assurance (FOQA) 
program, which involves the collection and analysis of data recorded 
during flight, offers a quantum leap forward in respect to safety. The 
Committee understands that progress has been made and many aircraft are 
suitably equipped. What additional steps can the FAA and airlines take 
to make the FOQA program a robust system and meet expectations?
    Answer. I have been and will continue to be an outspoken supporter 
of FOQA and other safety data programs.
    Currently, the FOQA program is operating at major airlines and 
meeting the expectations of the individual airlines that are 
voluntarily participating in the program. To further enhance the safety 
benefits of FOQA, a means for collecting and sharing safety related 
FOQA data among airlines, as well as with the FAA, should be 
implemented. In addition, a much wider participation in the program by 
regional airlines is needed.
    The FAA is working in partnership with airlines and labor 
associations in the FOQA Aviation Rulemaking Committee to address the 
establishment of a mutually acceptable venue for sharing FOQA data. The 
FAA has undertaken regulatory initiatives to address airline concerns 
about use of FOQA information for enforcement, and concerns about 
inappropriate disclosure of FOQA information voluntarily provided to 
the FAA. The FAA recognizes that implementing these protections is a 
pre-requisite to further progress on voluntary FOQA information 
sharing.
    Question 11. When she was going through her Senate confirmation 
process, former Administrator Garvey stated that ``[t]he top safety 
challenge confronting the FAA is to keep pace with a growing, dynamic 
industry that is evolving in its businesses, practices, and 
technology.'' This seems as true today as it was five years ago. Are 
you concerned from a certification and safety oversight perspective 
that technological developments are significantly outpacing the FAA's 
ability to keep up? What specific suggestions can you make to ensure 
that aviation safety inspectors are intimately familiar with the 
aircraft and component systems that they oversee?
    Answer. There is no doubt that technology is advancing at an 
unprecedented pace. To keep abreast of technological advancements and 
ensure that aviation inspectors are prepared to perform their safety 
oversight responsibilities, the FAA must: (1) continue to work closely 
with industry in determining training requirements for current and 
future aircraft systems; (2) expand the use of industry developed 
material in FAA training programs; and (3) make sure that the FAA 
participates and monitors the development, prototyping and testing of 
new technologies.

           LACK OF RESPONSIVENESS TO IDENTIFIED SAFETY ISSUES

    Question 12. In the past, the FAA has not been responsive to 
identified safety issues such as non-conforming threaded fasteners, 
defects in aviation cable, and the need to revise pilot rest 
regulations. What actions would you take to move forward to address 
these identified safety issues?
    Answer. If confirmed, I intend to hold the FAA management team 
accountable to address any safety issues that we, or others such as the 
NTSB, identify. During my tenure at NTSB, on the whole, I found the FAA 
to be responsive to the safety recommendations that we initiated. 
However, we must never lose our focus on identifying and addressing 
emerging safety risks.
    Question 13. There have been alleged improprieties on the part of 
FAA investigating itself involving fatal general aviation accidents. 
What actions would you take to avoid the perceptions of bias and cover 
up?
    Answer. As Chairman of the NTSB, I am intimately familiar with the 
importance of conducting unbiased and objective accident 
investigations. If confirmed, I intend to hold FAA managers accountable 
for ensuring that all investigations are performed in an equitable and 
fair manner. I would expect official written reports to be produced in 
response to all investigations and be reviewed at the executive level 
for appropriate actions.

                           CONTROLLING COSTS

    Question 14. Next year, the new Administrator will face a number of 
important issues associated with reauthorization of the majority the 
FAA's programs. One of the most difficult issues will involve funding 
for the Airport Improvement Program (AIP), which has enjoyed record 
levels and a certain degree of insulation from budget cuts since AIR-21 
was enacted. Also, there will be a great deal of tension between 
security and capacity funding needs within AIP. Do you anticipate that 
the FAA will need greater resources in future fiscal years or will the 
agency have to readjust internal priorities to accommodate modest 
budget growth?
    Answer. I understand that considerable work is well underway at FAA 
and DOT at the staff level on issues related to the reauthorization of 
AIR 21 and its vital aviation programs. As a general matter, and 
despite the current downturn in traffic related to the terrorist 
attacks of last year, I believe that it is important to continue to 
address issues of aviation congestion and infrastructure with a strong 
investment program. Making my own detailed assessments about the size 
and structure of AIP, and working on them with Secretary Mineta, will 
be a very high and early priority if I am confirmed. I look forward to 
discussing these matters in detail with the Committee in the months 
ahead.
    Question 15. The collective bargaining agreement with the FAA's air 
traffic controller workforce (the agency's largest workforce) will 
expire next year. As FAA Administrator, what do you think the key 
issues should be in renegotiating this agreement?
    Answer. I am committed to the collective bargaining process and if 
confirmed, look forward to conducting a meaningful, open, and fair 
dialogue with NATCA representatives. This will be an important time for 
the management of the FAA's workforce. As we learned from September 
11th, controllers played a critical role in our nation's response to 
the terrorists' attacks and are a vital part of the FAA. I feel that 
key outcomes of a new contract with NATCA should center on containing 
costs, enhancing productivity and technological changes, and 
maintaining a skilled workforce level that will assure a continued 
safe, efficient, and improved National Airspace System.
    Question 16. The FAA's operating costs, which are driven primarily 
by its payroll, have increased from $5.3 billion in 1998 to $7.5 
billion in 2003--an increase of more than 40 percent. Steep declines in 
aviation trust fund revenues have resulted in a much larger portion of 
the FAA's operating costs being taken from the General Fund. Given 
projected federal deficits and significant increased demands being 
placed on the General Fund, what actions do you think would be needed 
to contain the growth in the FAA's operating costs?
    Answer. I agree that the FAA and Congress should take whatever 
actions we can to contain the growth of the FAA's operating costs, 
provided that we continue to increase aviation safety and improve 
system efficiency. I believe the FAA can maintain and improve the best 
air traffic safety and control system in the world while reducing costs 
by doing the following:
    1. Taking advantage of technology that will reduce costs wherever 
possible and as soon as possible;
    2. Seeking to consolidate and streamline operations wherever 
possible; and
    3. Examining carefully projects and services that may not be cost-
beneficial.
    Obviously, any effort to reduce costs requires that we know the 
full cost of projects and services. Toward that end, I believe cost 
accounting must be extended throughout the agency and must be used in 
our analysis.
    If confirmed, I look forward to working with the Senator and his 
colleagues on implementing all possible cost-saving measures, while 
still maintaining and improving the best air traffic system in the 
world.
    Question 17. Since 1996, the FAA has been exempt from most 
provisions of Title 5, allowing the Agency flexibility in developing 
its personnel management system. While the FAA has used this 
flexibility extensively in setting compensation and awarding bonuses, 
we have not seen a corresponding increase in management accountability 
for costs. As a performance-based organization, accountability for 
costs is a major issue that the FAA must address. As the FAA 
Administrator, what steps would you take to hold managers at all levels 
accountable for controlling costs?
    Answer. Accountability for decisions and costs must be a key 
component of any personnel management system. While flexibility in 
personnel systems is necessary to address the unique needs of the FAA, 
there must also be sufficient internal checks and balances on the use 
of those flexibilities to ensure that managers are held accountable for 
their actions. As Administrator, I would require that my senior 
managers monitor the use of our personnel flexibilities within their 
organizations and ensure that they are used appropriately, effectively, 
and prudently.

                       CAPACITY AND MODERNIZATION

    Question 18. As you may know, in early July, the FAA extended New 
York LaGuardia Airport's slot lottery system for two years, delaying 
the implementation of a long-term demand management policy for the 
airport. The FAA is apparently taking more time to consider several 
different approaches to demand management and is reportedly considering 
such programs for other airports, including Boston Logan. What are your 
views of airport capacity demand management? Are you concerned that 
certain schemes may hamper competition or limit access for non-
incumbent carriers?
    Answer. Expanding capacity and ensuring efficient use of existing 
capacity are important methods to address airport congestion and delay. 
With some airports beginning to routinely experience increasing levels 
of delay, airport operators should consider ways to increase airport 
capacity, such as the addition of new runways. However, in certain 
cases, runway expansion is neither practicable nor appropriate. In 
these circumstances, it may be necessary to consider other approaches.
    If a demand management approach is adopted for allocating capacity 
at an airport, the selected approach will need to provide a proper 
balance between controlling congestion and delay while at the same time 
ensuring service to small communities, new airline entry, and 
consideration of international aviation obligations.
    Question 19. The FAA's air traffic control modernization 
acquisitions have traditionally been over cost and behind schedule. How 
would you make your managers and contractors more accountable for 
completing these important projects on time and within budget? What 
steps would you take to control cost growth with major acquisitions?
    Question 20. The FAA now faces major challenges in providing new 
hardware and software for oceanic air traffic control and new software 
for enroute computers. How would you as FAA Administrator ensure that 
significant problems in these important projects are avoided?
    Answers 19 and 20. The FAA has been actively working to improve the 
management and performance of its large acquisition programs and has 
made progress in addressing the problem of schedule and cost 
discrepancies in its programs. I don't believe there is any magic 
solution to delivering large, complex programs, especially when you're 
dealing with leading-edge technologies, but there are a few 
fundamentals that are necessary to ensure success.
    If confirmed, I will guarantee my own personal involvement in these 
large, complex, critical programs, including the oceanic and enroute 
computer modernization programs.
    The development cycle of each program should include a reassessment 
of risks and assumptions, the creation of a functioning prototype, an 
evaluation of lessons learned, and a go/no go decision for the next 
phase. When appropriate, I would convene independent review panels to 
assess the feasibility of continuing with particularly challenging 
programs.
    I am encouraged by the agency's recent change to its acquisition 
process. Programs are first reviewed to select the best alternative and 
then baselined when more information is known about the acquisition 
strategy, expected costs, and risks. Delaying final baselining until 
the program manager has had a chance to poll the marketplace and have 
contractor input and information should greatly reduce the risk of 
having to rebaseline later and allow us to manage within acceptable 
variances. Once established, baselines are managed through a series of 
controls that include risk management plans, program control processes 
and disciplines, Earned Value Management System controls to manage 
contractor performance and risk, and baseline management and reporting. 
Senior level managers receive program status reports on a monthly basis 
and detailed reviews of program cost, schedule, and technical status at 
semi-annual Acquisition Reviews. Finally, proceeding with procurements 
at a deliberate pace need not be inconsistent with rapid innovation and 
modernization. If confirmed, I would continually try to make the 
efficiency and safety benefits that we expect from cost effective 
modernization a compelling priority for the FAA team.
    Question 21. The FAA's Operational Evolution Plan calls for 
airspace users to invest perhaps billions of dollars in new technology 
(satellite navigation, data link, communications, etc.). At the same 
time, the airlines are financially struggling. What do you think is the 
best approach to encourage airspace users to equip with new technology? 
Under what circumstances do you think the FAA should mandate the use of 
new technology?
    Answer. It is my understanding that the Operational Evolution Plan 
is a commitment document that reflects the FAA/Industry consensus 
approach to voluntary aircraft equipage. Working with the Radio 
Technical Communications Association (RTCA), the FAA has revalidated 
this approach and RTCA will soon publish a report that will establish 
the guidelines for mandatory versus voluntary equipage. For the OEP 
capabilities, data driven, government cost/benefit analysis would be 
needed to support this decision process. I have been told that the FAA 
expects that typically benefits such as cost avoidance, revenue 
enhancement, and strategic advantage will provide effective incentives 
for airlines and operators to equip. As FAA Administrator, I would 
support current FAA policy that for OEP capabilities, mandatory 
equipage will be considered only if a compelling benefit to industry 
can be defined. Otherwise, only compelling safety and security concerns 
merit mandatory equipage.

         OVERARCHING FACTORS THAT WILL AFFECT FAA'S PERFORMANCE

    Question 22. There has been much talk this past year about 
restructuring the FAA. What are your ideas on how the agency should 
structure itself to provide more cost-effective air traffic services? 
Based on your experiences at the Safety Board, what do you think the 
FAA needs to do a better job on?
    Answer. I believe the FAA is placing a strong emphasis on 
performance metrics. This commitment to openly measuring performance 
and sharing the results with the aviation community is a fresh approach 
for a Federal agency. While the FAA has made strides in its internal 
processes, I think more can be done in terms of accountability and 
follow through. The Operational Evolution Plan (OEP) demonstrates a 
good example of developing an improvement plan with a focus on internal 
processes.
    Question 23. It has been two years now since the Wendell H. Ford 
Aviation Investment and Reform Act for the 21st Century (AIR-21) 
established a Chief Operating Officer and Management Advisory Council, 
with a subcommittee to oversee air traffic services. While a Management 
Advisory Council and an Air Traffic Control Subcommittee have been 
established, a Chief Operating Officer responsible for negotiating a 
performance agreement with the FAA Administrator has still not been 
hired. What are your views on what type of individual is needed in this 
position and what plans might you have to move forward in the hiring 
process?
    Answer. I am told that over the past year and one-half, aggressive 
efforts were made to recruit for the COO position by the Secretary of 
Transportation, the Deputy Secretary and the FAA Administrator. Two 
search firms were employed, both unsuccessfully. Several offers were 
extended and ultimately rejected. In the end, two factors above all 
made it difficult to recruit a suitable candidate. First, the pending 
transition at the head of FAA--each candidate wanted to be assured of a 
good working relationship and professional fit with the new 
Administrator. Second, there was considerable concern among candidates 
about the role of the COO relative to the ATC Subcommittee and the 
COO's reporting relationship within FAA. The Department of 
Transportation has drafted legislation that would address the reporting 
relationship issues and make the work of the ATC Subcommittee more 
effective. If confirmed as FAA Administrator, advocating passage of 
that legislation and recruiting an effective COO would be one of my 
very highest personnel priorities for FAA. I would look for a COO 
candidate with strong management skills, deep operating experience and 
the discipline to establish, measure and run the enterprise with 
rigorous metrics tied to FAA performance goals. Ideally the COO would 
have significant experience in the aviation world.
    Question 24. Several years ago, Congress gave the FAA extraordinary 
personnel and procurement flexibilities. While there is some general 
agreement that agency procurement has improved as a result of those 
changes, it is much less evident that the personnel reforms have 
yielded significant benefits. What is your view of these reforms? Is 
there anything you could do as Administrator to take more advantage of 
personnel flexibilities?
    Answer. Changing personnel systems is a major challenge for any 
organization, particularly one as large and geographically dispersed as 
the FAA. I believe the FAA has made progress in implementing its new 
personnel system. There have been successes in recruitment and 
employment flexibilities, implementation of performance-based 
compensation programs, and movement to an effective performance 
management system. As Administrator, I would examine how I could use 
the flexibilities and tools available in the FAA system to continue the 
progress that has already been made. The ultimate goal over time should 
be an agency that is responsive to its customers, focused on its 
mission and goals, and supportive of the Administration's initiatives 
for human capital management as outlined in the President's Management 
Agenda.
    Question 25. Based upon your work at the NTSB, are there areas or 
ways in which the FAA is severely deficient? If so, what do you propose 
to do to address those deficiencies?
    Answer. One area that has been of some concern to the NTSB and to 
me personally is that of runway incursions. I am pleased that the FAA 
created an office of Runway Safety to focus completely on this issue. I 
think the FAA's current approach of focusing on reducing the number of 
the most dangerous runway incursions, rather than simply reducing the 
overall number, will improve safety. There have been some indications 
that this approach is working. I look forward to working with this 
office on this very important issue. I would also like to see where we 
might expand upon the use of information shared by the aviation 
industry to be more proactive in improving safety.

                                 SPACE

    Question 26. What efforts has the FAA made to include space 
transportation in the modernization of the National Airspace System 
(NAS) and how will these efforts accommodate the future requirements 
for commercial space launches and re-entries?
    Answer. I have been advised that the combined resources of the 
FAA's Commercial Space Transportation and Air Traffic Services teams 
have developed two documents that offer a bridge between space and 
aviation operational requirements. The first document that is part of 
this bridge is the Concept of Operations (CONOPS) for commercial space 
transportation. The CONOPS describes commercial space transportation 
operations with an emphasis on the management of space launch and 
reentry vehicles as they transition through the National Airspace 
System. The second document is a Space and Air Traffic Management 
System (SATMS) Program Plan, which lays out the incremental steps 
needed to accomplish the integration of space operations within the 
NAS.
    To accommodate future requirements FAA's experts in Commercial 
Space Transportation support the NAS Architecture development as it 
incorporates space concepts and identifies future NAS requirements. 
Commercial Space Transportation also participates in the Interagency 
Air Traffic Management Product Team and the Radio Technical 
Communications Association Advisory Committee to review the future 
challenges that face the commercial space industry and assure a smooth 
transition.
    In addition, to oversee the objective of seamlessly integrating 
space into the NAS, the FAA has established a SATMS Executive Board 
that is comprised of senior FAA and DOD managers. The FAA expects that 
the efforts I have described here will be included in the Operational 
Evolution Plan strategic goal planning activities in order to effect a 
seamless transition that meets all current and future user needs.

                        GRAND CANYON OVERFLIGHTS

    Question 27. As you may know, I have a long-standing interest in 
the issue of air tour overflights of our national parks, particularly 
the Grand Canyon. A federal appeals court recently ruled that the FAA 
must reconsider certain aspects of its regulations governing air tours 
over the Grand Canyon. Are you familiar with this issue and can you 
tell me how you believe the agency should handle the matter?
    Answer. I am aware that the FAA and the National Park Service have 
been working for some time to address concerns about the noise created 
in the Grand Canyon by air tours that operate in the area. I have been 
told that FAA staff are in the process of looking at the impact of the 
recent court decision and how the FAA should proceed in cooperation 
with the Department of Interior in light of the decision. I can assure 
you that I will look into this matter and update you and the Committee 
at the earliest possible opportunity should I be confirmed.

                                 ______
                                 
  Response to Written Question Submitted by Hon. Kay Bailey Hutchison 
                            to Marion Blakey

    Question 1. The Standard Terminal Automation Replacement System 
(STARS) program is 4 years behind schedule and $700 million (80%) over 
budget. The DOT IG has called it a ``problem program'' given the cost 
and schedule risk. What are your plans for getting this critical 
program back on track and reducing the cost and schedule risk?
    Answer. I understand that the schedule delay which the Department 
of Transportation Inspector General has referred to happened in 1997 
when labor unions identified numerous human factors issues that 
resulted in a need for significant software development. The FAA agreed 
to these changes but this drove up costs from $940.2 million to $1.4 
billion and delayed STARS deployment by nearly four years. Since those 
changes were made, I have been told that STARS development and 
deployment has been on schedule.
    The FAA's risk mitigation plan for STARS involves an incremental 
deployment schedule that allows the controllers and technicians to get 
used to some changes before introducing others. This allowed STARS to 
be introduced to the user community in three phases, with each phase of 
STARS undergoing operational testing prior to deployment. As a result, 
STARS has undergone extensive levels of testing at the FAA technical 
center in New Jersey, at Department of Defense (DoD) air traffic 
control facilities and at several FAA air traffic control facilities.
    I have been advised by FAA officials that, they expect the STARS 
system to be operationally suitable to control live air traffic in 
Philadelphia by November 17, 2002. The STARS system is currently being 
used to control live traffic in El Paso, Texas and Syracuse, New York 
with an initial software version, and the system at El Paso will be 
upgraded nearly two months before Philadelphia commences operations.
                               __________

                          Air Crash Victims Families Group*
                                    Ridgewood, NJ, August 15, 2002.
Hon. John McCain,
Senate Committee on Commerce, Science and Transportation,
508 Dirksen Senate Office Building,
Washington, DC.
    Dear Senator McCain: We endorse the nomination of Marion C. Blakey 
as the new Administrator of the ``Federal Aviation Agency''.
---------------------------------------------------------------------------
    * The ``Air Crash Victims Families Group'' is an informal alliance 
of ``The American Association for Families of KAL007 Victims'', ``The 
TWA800 Families Assoc., Inc.'', ``The International Association for 
Families of Swissair 111, crash victims of Alaska Air 261, EgyptAir 990 
and American families of other air tragedies.
---------------------------------------------------------------------------
    Mrs Blakey is presently the Chairman of the ``National 
Transportation Safety Board'' (NTSB), the transportation accident 
investigative agency which feeds the ``Federal Aviation 
Administration'' their recommendations for the needs to improve the 
safety and security in the civil air transportation sector.
    Her NTSB experience alone would make Mrs. Blakey uniquely qualified 
to lead the FAA for speedier implementation of their recommendations.
    In addition, Mrs. Blakey brings to the FAA a wide ranging, balanced 
experience from the time she worked at the Department of 
Transportation, at other Government Agencies, at the White House and in 
the private sector.
    Even before the catastrophic events of September 11, 2001 the FAA 
found itself engaged and pressured to reorganize, streamline and 
modernize its operations. During the tenure of its past Administrator, 
Jane Garvey, the FAA has made progress in that direction. It is now 
imperative that the momentum of those ongoing efforts of 
reorganization, regulatory improvements, technical and operational 
modernization to bring the FAA fully into the 21st Century be continued 
seamlessly, without interruption, and be expanded.
    With her past experiences Chairman Blakey would assure not only the 
continuity to maintain, but also to increase the momentum of 
reorganization, where needed, involving in the process all interested 
parties, the flying public included.
    Chairman Blakey must be commended for her courage and for her 
commitment to accept this daunting, often thankless task.
            Respectfully,
                                       A. Frank Carven III,
                                                            TWA800.

                                       Hans Ephraimson-Abt,
                                                            KAL007.

</pre></body></html>
